<html>
<title> - THE GOOGLE PREDICAMENT: TRANSFORMING U.S. CYBERSPACE POLICY TO ADVANCE DEMOCRACY, SECURITY, AND TRADE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
               THE GOOGLE PREDICAMENT: TRANSFORMING U.S.
                      CYBERSPACE POLICY TO ADVANCE
                     DEMOCRACY, SECURITY, AND TRADE

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2010

                               __________

                           Serial No. 111-85

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
55-395                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7c6b745b786e686f737e776b3578747635">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
         Jasmeet Ahuja, Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
          Jessica Lee, Professional Staff Member deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     Peter Quilter, Senior Professional Staff Member deg.<greek-l>
      Edmund Rice, Senior Professional Staff Member deg.<greek-l>
      Daniel Silverberg, Senior Deputy Chief Counsel deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
                Kristin Wells, Deputy Chief Counsel deg.
   Shanna Winters, General Counsel and Senior Policy Advisor<greek-l>
        Brent Woolfork, Professional Staff Member deg.<greek-l>
         Robert Marcus, Professional Staff Member deg.<greek-l>
     Diana Ohlbaum, Senior Professional Staff Member deg.<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
   Genell Brown, Senior Staff Associate/Hearing Coordinator<greek-l>
                     Riley Moore, Deputy Clerk deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Nicole Wong, Esq., Vice President and Deputy General Counsel, 
  Google, Inc....................................................     9
Ms. Rebecca MacKinnon, Visiting Fellow, Center for Information 
  Technology Policy, Princeton University, Cofounder of Global 
  Voices Online..................................................    19
Larry M. Wortzel, Ph.D., Commissioner, U.S.-China Economic and 
  Security Review Commission.....................................    32
Mr. Robert W. Holleyman, II, President and CEO, Business Software 
  Alliance.......................................................    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Nicole Wong, Esq.: Prepared statement............................    12
Ms. Rebecca MacKinnon: Prepared statement........................    21
Larry M. Wortzel, Ph.D.: Prepared statement......................    34
Mr. Robert W. Holleyman, II: Prepared statement..................    48
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Letter from Google, NGO Joint 
  Statement in Support of H.R. 2271 and letter from Freedom House    81

                                APPENDIX

Hearing notice...................................................    92
Hearing minutes..................................................    93
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    95
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........    97
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................   100
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................   101
The Honorable Gene Green, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   102
Questions submitted for the record by the Honorable Barbara Lee, 
  a Representative in Congress from the State of California......   103
Question submitted for the record by the Honorable Ileana Ros-
  Lehtinen, a Representative in Congress from the State of 
  Florida........................................................   114
Questions submitted for the record by the Honorable Joseph 
  Crowley, a Representative in Congress from the State of New 
  York...........................................................   115
Question submitted for the record by the Honorable Christopher H. 
  Smith, a Representative in Congress from the State of New 
  Jersey.........................................................   116
Questions submitted for the record by the Honorable Michael T. 
  McCaul, a Representative in Congress from the State of Texas...   117

 
THE GOOGLE PREDICAMENT: TRANSFORMING U.S. CYBERSPACE POLICY TO ADVANCE 
                     DEMOCRACY, SECURITY, AND TRADE

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. Just for 
the three colleagues of mine who are here now, I would like to 
<greek-l>just  deg.remind you that at 8:30 a.m. tomorrow 
<greek-l>morning  deg.I will be hosting a meeting of the 
Foreign Assistance Reform Working Group in room 2255, and I 
encourage my colleagues to come. Next week at 9:30 a.m. we will 
have what promises to be a very interesting hearing on the 
European security architecture and the transatlantic security 
architecture.
    And sometime before the spring recess I hope to hold a 
markup to consider Mr. Smith's International Megan's Law 
legislation and possibly a bill on science diplomacy which Mr. 
Fortenberry and I will introduce today.
    After Mr. Smith and I make our opening remarks, other 
members will have the opportunity to make 1-minute statements 
if they wish to do so. Members are also welcome to place 
written statements in the record. In fact, for the members who 
are here now, I think--and given that the Afghanistan 
legislation is not going to be on until later--for the members 
who are here at the time of the gavel, I think we will allow 2-
minute opening statements by them.
    Today's hearing: In a recent speech on 21st-century 
statecraft, Secretary Clinton said the State Department is 
realigning its policies and priorities to harness and promote 
the power of the latest communication tools. Her remarks 
illustrate the fact that new means of electronic communication 
have created both opportunities and challenges for those who 
formulate our national security and foreign policy.
    While many congressional committees have looked at the 
issues of human rights, defense, and trade in connection with 
the Internet, it is time for us to consider a comprehensive 
approach to the increased worldwide use of cyber technology.
    This hearing will address what we are calling the ``Google 
Predicament'' because Google's experience over the past couple 
of months highlights the challenges in developing a cyber-
specific foreign policy. The Internet is a useful tool to 
promote freedom and trade, but in some places it also serves as 
a means of censorship. It is a boon for U.S. business but also 
a source of great vulnerability with respect to U.S. national 
security. Reconciling these conflicting policy challenges is a 
key mission for the administration and, I believe, for this 
<greek-l>Sub deg.committee.
    The latest communication technologies are being put to use 
to advance democracy and protect human rights. Widespread use 
of Twitter overcame the Iranian regime's ban on media coverage 
of last summer's election results and their aftermath. And a 
graphic video posted on YouTube of a young Iranian woman who 
was shot and killed during a protest galvanized world opinion, 
as it gave people an unvarnished look at the crackdown.
    The administration acknowledged the power of these 
communication tools just this past Monday by granting a general 
license for the transfer of social networking software to Iran 
and other repressive nations. This is an important and good 
step that will foster greater freedom of expression. But 
paradoxically, cyber technology also serves as a weapon of 
choice for repressive regimes. Under our former chairman, Tom 
Lantos, this committee examined closely how American companies, 
however passively, can and do facilitate censorship. Our 
colleague Chris Smith has also been very active in advancing 
the discussion of this subject.
    The notion that American companies can heedlessly supply 
their software, routers, and information to governments that 
use them for repressive purposes is untenable. But preventing 
companies from engaging in trade with countries ruled by those 
repressive governments is equally untenable, for it would deny 
billions of people the ability to access the very information 
needed to support their resistance.
    When it comes to human rights, there must be a way to 
balance the benefits of cyber technology with its very real 
potential harms. A voluntary organization known as the Global 
Network Initiative, made up of human rights organizations and 
various companies, works directly on this issue. Regrettably, 
many companies have failed to join. As a result, we may 
consider legislation to address this issue. Providers of 
technology need to step up.
    American companies did just that last year when Beijing 
mandated installation of the Green Dam-Youth Escort Software on 
all computers sold in China. This software program would have 
blocked Internet searches on politically sensitive subjects and 
made computers more vulnerable to hackers. Companies persuaded 
the United States Government to protest the Green Dam 
requirement because it violated free trade obligations under 
WTO rules. We need to see that kind of public-private 
partnership at work across the board on issues involving cyber 
security and Internet freedom.
    It is also very much in the interest of U.S. business to 
make such a partnership work. Brand integrity of U.S. entities 
is at stake when someone hacks into and alters or steals the 
intellectual property of U.S. companies such as Google. Melissa 
Hathaway, author of President Obama's recent ``Cyberspace 
Policy Review,'' suggests that the government may need to 
retool our intelligence and diplomatic communities to protect 
U.S. intellectual property abroad.
    Finally, and perhaps most troubling, is the way cyber 
technology can be exploited to undermine our own security. Make 
no mistake: Not only are sophisticated and network-secure 
companies like Google vulnerable to attack from foreign 
countries, but the entire U.S. network faces assault on a daily 
basis. As recently noted by <greek-l>the  deg.Deputy Defense 
Secretary Lynn, an adversarial nation could deploy hackers to 
take down U.S. financial systems, communications and 
infrastructure at a cost far below that of building a trillion-
dollar fleet of jet fighters or an aircraft carrier.
    China's alleged hacking of Google and subsequent reports 
that Google is partnering with the National Security Agency to 
analyze the attack raise some relevant questions for this 
committee: Does an unauthorized electronic intrusion constitute 
a violation of national sovereignty, equivalent to a physical 
trespass onto U.S. territory--and if so, what is the 
appropriate response?
    We also need to consider the foreign policy implications of 
offensive U.S. capabilities. The United States has much to lose 
from a lawless cyberspace where countries can attack each other 
at will and engage in a perennial low-intensity cyber conflict.
    We look forward to hearing from our witnesses on how we can 
simultaneously promote Internet freedom and deprive repressive 
regimes of the tools of cyber-repression; and how we can 
promote the global diffusion of the Internet while also 
protecting ourselves from cyber attack.
    But before we hear from our witnesses, first let me turn to 
our esteemed colleague, Chris Smith--designated by the ranking 
member to serve in her stead today--for any opening remarks 
that he may wish to make.
    Mr. Smith. Mr. Chairman, thank you very much, and I thank 
you for convening this very timely and very important hearing. 
Mr. Chairman, as you know, Reporters Without Borders documents 
that at least 120 people are currently imprisoned for online 
postings, that is the ones we know of, 72 of them in China 
alone, but also large numbers in Iran and Vietnam. In 2005, I 
had a meeting in a restaurant in Hanoi with Vu Thuy Ha, the 
wife of Dr. Pham Hong Son, who had e-mailed an article entitled 
``What is Democracy?,'' downloaded from U.S. Embassy in Hanoi's 
Web site.
    He sent it to his friends. The Vietnamese Internet police 
called this espionage and punished him with a very long prison 
term. While Vu and I talked, police thugs conspicuously sat at 
the next table--there were three of them--scowled at her, took 
her picture, I took theirs, and they made a number of 
threatening gestures. She was very fearful. Many people in this 
room will remember the groundbreaking hearings this committee 
held on Internet freedom.
    I chaired two of those in 2006, I chaired an 8-hour hearing 
on the Internet in China, which we subtitled ``A Tool for 
Freedom or Suppression.'' The hearing responded to Yahoo's 
cooperation with Chinese Internet police in tracking down 
journalist Shi Tao, who is still serving a 10-year prison term 
for disclosing state secrets--that is, he e-mailed to the 
United States Chinese Government orders on not reporting on the 
15th anniversary of the Tiananmen Square massacre--he sent that 
to an NGO in New York.
    In 2007, Tom Lantos followed up with a hearing on Shi Tao 
and others in which Yahoo's Jerry Yang testified to the 
committee while Shi Tao's mother sat right behind him in the 
audience. At the end of the hearing, Jerry Yang met with Shi 
Tao's mother, and since then Yahoo has undertaken to do what it 
can to compensate some of the families like Shi Tao's and 
others imprisoned because of their Internet work. But the 
victims of the growing global assault on Internet freedom are 
also entire peoples denied their right to free expression, 
often self-censoring out of fear, and denied access to 
information.
    These include the Chinese, Iranian, Belarusian, Cuban, 
Burmese, Egyptian, North Korean, Saudi Arabians, Syrian, 
Tunisian, Turkmen, and Uzbek peoples, who live under 
governments which Reporters Without Borders classifies as the 
twelve worst enemies of the Internet. Currently, over three 
dozen countries routinely censor the Internet. This number is 
growing. And in recent years they have developed increasingly 
sophisticated tools for blocking, filtering, and surveilling 
the Internet. They exchange technologies and tactics, which are 
often modeled on the Chinese Government's Great Firewall of 
China.
    Yet we have also learned some positive lessons from 2006. 
We have seen that many U.S. IT companies really want to do the 
right thing. Since 2006, Yahoo has established much stricter 
policies governing its interactions with repressive 
governments, working to keep personally identifying information 
out of their hands. When it went into Vietnam, for example, 
Yahoo stored personally identifiable information in Singapore, 
out of reach of the government secret police.
    Google's transformation has even been more remarkable. 
Since 2006, I have been meeting with Google executives and they 
have known for some time that the theory that their mere 
presence in the Chinese market would somehow liberalize China 
or at least justify their willingness to censor searches has 
proven mistaken, and that China was growing more repressive. 
Google's statement in January that it ``is no longer willing to 
continue censoring results on its Chinese search engine'' was 
remarkable and it was thrilling. Certainly the hearts of 
millions of Chinese human rights activists and political 
dissidents were equally happy.
    Google deserves to be praised for this decision. It is a 
blow against the cynical silence of so many about the Chinese 
Government's human rights abuses, a blast of honesty and 
courage from which we can all draw inspiration. Mr. Chairman, I 
believe Google's making a principled and public commitment to 
do the right thing and stop censoring, combined with its 
willingness to spend some time in patient dialogue with the 
Chinese Government, giving that government every chance to do 
the right thing as well, is a model of how IT companies can 
deal with repressive regimes.
    But I also believe the model can be improved upon. Google's 
recent difficulties in China make it even more clear, clearer 
than ever, that however well intentioned American IT companies 
are, they are not powerful enough to stand up to a repressive 
government, particularly the likes of China. Without U.S. 
Government support and backing, they are inevitably forced to 
play a role in the repressive government censorship and 
surveillance.
    But the Global Online Freedom Act, legislation I crafted in 
'06 and reintroduced this Congress, will give American IT 
companies the U.S. Government backup they need to negotiate 
with repressive governments. I would remind my colleagues it 
was patterned after three major initiatives, the International 
Religious Freedom Act of 1998, the Trafficking Victims 
Protection Act of 2000, which I authored, and the Foreign 
Corrupt Practices Act, which in the late '70s, many people said 
that it disadvantaged U.S. companies. Yet, it really became the 
model--not just for the U.S. but for the world--on not 
providing bribes and other such ways of doing business all over 
the world.
    It is the standard, it is a model, and is a minimum 
standard that needs to be followed now on the Internet side. 
Because of time, I will not go through all of the various 
provisions of the Global Online Freedom Act, but I would ask my 
colleagues to take a good hard look at it. I think it is an 
idea whose time has come in terms of really setting at least a 
minimal standard, a floor if you will, to protect nonviolent 
political speech and nonviolent religious speech; and that is 
the aim of the legislation.
    It does it in two very simple ways: By requiring a full 
disclosure of what it is that is being censored, and secondly, 
by ensuring that personally identifiable information is put out 
of reach of Internet restricting countries, a designation that 
would be conferred on those countries after due diligence and 
analysis by an office that would be created within the 
Department of State. I thank you, Mr. Chairman, for again 
calling this hearing. We need to move on this and move quickly. 
Thank you.
    Chairman Berman. Time of the gentleman has expired. Under 
the unanimous consent edict or whatever, the members who were 
here at the time, if they wish to, can be recognized for up to 
2 minutes. Other members who wish to make opening statements 
for 1 minute. The gentleman from California, Mr. Sherman, seeks 
recognition? The gentleman is recognized for 2 minutes.
    Mr. Sherman. American policy is marked by perhaps a very 
aggressive military policy and a very passive approach to using 
our economic, technological, and diplomatic power. Keeping 
Google out of China is not the solution, in fact that may be 
what China is trying to achieve. We should instead have 
hundreds of millions of dollars devoted to developing the 
technology and putting out the contracts to develop the 
technology to punch a hole in the Great Wall of China and all 
the other barriers to the use of the Internet.
    Likewise, we should be aggressive in using our technology 
to take down terrorist sites around the world. But this isn't 
just an Internet issue, this is an overall economic issue. We 
have an enormous trade deficit with China because we open our 
markets to them and they figure out ways to close their market 
to us. Hacking is just one of many ways they do that. We have 
had hearings in our Subcommittee<greek-l>, deg. on Terrorism, 
Nonproliferation<greek-l>, deg. and Trade, in which business 
after business comes forward and talk about what they face when 
they try to export to China. The offsets, the criminality, the 
theft, the confiscation and our Government does nothing. As 
long as American policy is dominated by Wall Street and Wal-
Mart, neither democracy nor America will be in the ascendancy. 
I yield back.
    Chairman Berman. The gentleman has yielded back. Does the 
gentleman from California seek recognition?
    Mr. Rohrabacher. Yes I do.
    Chairman Berman. The gentleman from California, Mr. 
Rohrabacher, is recognized for 2 minutes.
    Mr. Rohrabacher. Thank you very much. And I would like to 
identify myself with the remarks of my colleague, Mr. Sherman, 
who is again getting to the heart of the matter in many ways. 
Let us just note, in January of this year when Google announced 
its intention to stop censoring its search results in the 
People's Republic of China, I was very supportive and I was 
very complimentary of Google, and because that was in stark 
contrast to some of the other companies that were operating in 
China.
    Unfortunately, Google has yet to follow through on and to 
stop self-censoring. And, you know, our praise shouldn't be for 
an intent, our praise should be for accomplishing what has been 
set out, and I am very anxious today, Mr. Chairman, to hear the 
details about what <greek-l>is  deg.Google is planning to do, 
and there seems to be a contradictory position here between 
what their goal is and what they are actually doing as we 
speak. Let us note that the Internet is a powerful force in the 
world today, and I would suggest it can be used for positive 
things, it can be used to promote freedom and human dignity and 
information, the spread of information over a broad area, or it 
can be used for just the opposite, it could be used by tyrants 
and gangsters to oppress their own people.
    It behooves us, as people who believe in freedom and 
democracy, to stand with the people of China and to say that in 
this very important area of technology transforming our 
societies, that we will work with the people of China, not the 
Government of China, to see that this technology is used in a 
positive way and not a negative way. If, as Mr. Sherman says, 
if our corporations hold true to those values, we will work 
with those corporations. If the corporations that happen to be 
owned by Americans do not, we will be against them.
    Chairman Berman. The time of the gentleman has expired. Who 
else seeks recognition for opening statements? The gentlelady 
from California, Ms. Woolsey, is recognized for 2 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman. I will be very quick. 
China is a very desirable market, and that makes it that much 
more difficult for us and the corporations in China to take a 
principled stand against, well, our corporations to take a 
principled stand against China's cyber action and policies. 
That is very clear to us. But of course we must take a stand. 
And it would certainly be best, as Congressman Rohrabacher 
said, if the corporations and businesses in China and the 
United States would work out our differences and make this 
work. But if it can't, I support our chairman in saying that we 
will need to take action. So I am so anxious to hear today what 
our witnesses have to say because I bet you have some good 
ideas about this. And I would like to yield the rest of my time 
to Congresswoman Lee from California.
    Chairman Berman. The gentlelady yields 1 minute to the 
gentlelady from California, Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman. Let me thank the 
gentlelady for yielding and just welcome our panelists and just 
say, you know, while these very powerful technologies have 
provided many opportunities to improve lives as well as 
strengthen international engagement and partnership, they have 
also opened doors for misuse or abuse by governments, 
businesses, and individuals. Adapting and planning for the 
current and anticipated impact of this technological 
transformation is really critical for us to ensure that we take 
a very proactive approach to fostering the flow of information, 
guarding our vital national security interests, and protecting 
individual freedoms and civil liberties for ours and for future 
generations. Thank you again, Mr. Chairman. I want to thank 
again the gentlelady for yielding, and welcome, look forward to 
your testimony.
    Chairman Berman. Time of the gentlelady has expired. Anyone 
else seek recognition for an opening statement? The gentleman 
from South Carolina, Mr. Inglis, is recognized for 1 minute.
    Mr. Inglis. Thank you, Mr. Chairman. When I was practicing 
law in about 1999, the assistant IT person at our firm handed 
me a piece of paper, he said, ``Google''--he had written it 
out--he said, ``Google, that is what you want to go search 
on.'' Now, like I suppose most people, I am frustrated by any 
other search engine, because they are not as fast and they are 
not as good as Google. So the thought of having a real Google 
and a fake Google, one that turns up all the results that the 
rest of the world can see, and one that turns up just what the 
Chinese Communist dictators want you to see, is just an amazing 
incongruity, it just doesn't make sense. And so I am so 
grateful for Google recognizing that and making the decision to 
move toward providing the people of China with the real Google, 
the real information that the rest of the world gets. That is 
the way it should be. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from New York, Mr. Crowley, seeks recognition. The 
gentleman is recognized for 1 minute.
    Mr. Crowley. Mr. Chairman, thank you very much. I also want 
to thank Ranking Member Ros-Lehtinen for organizing this 
hearing. I would also like to thank the witnesses for their 
willingness to share their experiences. It is no secret that 
there are different opinions on doing business in China, 
especially when it comes to matters relating to freedom of 
expression. At the same time, we know that those with differing 
views are acting in the spirit as Confucius's famous saying 
goes, hold faithfulness and sincerity as first principles. 
These issues, the security of the Internet, intellectual 
property, and indeed national security, go to the very core of 
our national interests. I look forward to hearing more from the 
witnesses on these important matters and this timely 
discussion. With that, Mr. Chairman, I yield back 20 seconds.
    Chairman Berman. Yes, that and what gets you a cup of 
coffee? The gentleman from California, Mr. Royce, is recognized 
for 1 minute.
    Mr. Royce. Thank you, Mr. Chairman. Information is power, 
and during the Cold War, radio free Europe in its broadcasts 
helped to spread untainted information that empowered people 
like Lech Walessa and Vaclav Havel. But today the means have 
changed, but the ability of information to undermine 
totalitarian regimes remains constant. The Internet has 
empowered new generations. You have the green movement in Iran 
that has utilized new technologies to disseminate information 
among dissidents, democracy advocates from China to Vietnam are 
blogging about freedom and about democracy. But I will close 
with this irony, and it is from the Washington Post. They wrote 
recently, ``China aims not just at eliminating the free speech 
and virtual free assembly inherent in the Internet, but at 
turning it into a weapon that can be used against democrats and 
against democratic societies.'' Thank you, Mr. Chairman.
    Chairman Berman. The gentlelady from California, Ambassador 
Watson, is recognized for 1 minute.
    Ms. Watson. Thank you so much, Mr. Chairman. The Internet 
is an invaluable tool for expression of information and ideas. 
Not only does this Internet allow for speedy disbursal, but 
also reaches scores of people that was previously unimaginable. 
That is why I feel that Internet security and freedom are so 
important, and we must be able to protect our constituents and 
our Government agencies from unwarranted cyber attacks from 
international players such as China.
    Sites such as Twitter and YouTube have provided us with 
information about unjust acts all around the world, such as the 
recent videos of election day protests in Iran. These videos 
provide a window into the world that has previously been closed 
to us. For that reason, I believe that we must do all we can to 
protect the freedom of speech on the Internet. Thank you, Mr. 
Chairman.
    Chairman Berman. Time of the gentlelady is expired. Who 
else seeks recognition? The gentleman from New York, Mr. 
McMahon is recognized for 1 minute.
    Mr. McMahon. Thank you, Mr. Chairman, and I join those who 
thank you for scheduling this hearing and having these 
witnesses come as well. I would just ask that the witnesses, as 
they address the issue of Internet freedom in China and report 
on what happened with Google and what is going forward, that 
they also keep in mind and speak about intellectual property 
rights and the fact that as we have freedom of information 
flowing we also respect the rights of those who create music, 
who create intellectual property, films and the like, because 
that has become a very valuable good or manufactured thing or 
commodity that America produces and yet our rights seem to be 
taken away by those who do that. So I would ask you to focus on 
that as well as we go forward. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman is expired. And 
now we will--oh, the gentleman from New Jersey seeks 
recognition. Mr. Sires is recognized for 1 minute.
    Mr. Sires. Thank you, Mr. Chairman. As I read this, you 
know, I am very concerned that the China model may become a 
model for the rest of the countries that want to stifle free 
information, and I think it is very important that the 
negotiations that are going on now do not become a model for 
all these other countries that want to stifle. I am thinking 
specifically of Cuba and North Korea. So, you know, you have 
got your hands full. And I just wanted to make that statement, 
I know I have a little time, but I will have questions and I 
want to thank you for being here and thank the chairman for 
holding this meeting. Thank you.
    Chairman Berman. The time of the gentleman has expired, and 
now we are going to introduce and hear from our witnesses. 
Nicole Wong is deputy general counsel at Google, working 
primarily on the company's product and regulatory matters. 
Prior to joining Google, she was a partner at the law firm of 
Perkins Coie, where she represented traditional media and new 
media clients. Ms. Wong also taught media and Internet law 
courses as an adjunct professor at the University of California 
at Berkeley, Stanford University, and the University of San 
Francisco.
    Rebecca MacKinnon is a visiting fellow at Princeton 
University Center for Information Technology Policy, where she 
is working on a book about China, the Internet, and the future 
of freedom in the Internet age. She is a cofounder of the 
Global Voices Online, an Internet blogger's network, and a 
founding member of the Global Network Initiative, a multi-
stakeholder initiative that promotes free expression and 
privacy around the world.
    Dr. Larry Wortzel, serves as a--am I pronouncing that 
right? Okay--commissioner on the congressionally-appointed 
U.S.-China Economic and Security Review Commission. Previously, 
Dr. Wortzel served as vice president for foreign policy and 
defense studies, and as director of the Asian Studies Center at 
the Heritage Foundation.
    And Robert Holleyman is president and CEO of the Business 
Software Alliance, an association of the world's leading 
developers of software, hardware, and Internet technologies. 
Prior to joining BSA in 1990, Mr. Holleyman spent 8 years on 
Capitol Hill as legislative director to former U.S. Senator 
Russell Long, and then as senior counsel for the U.S. Senate 
Committee on Commerce, Science, and Transportation. We are 
really very pleased that you folks would come. We apologize for 
that snow that put this hearing off until now, but all of you 
working out your schedules to join us today we are very 
grateful for. Ms. Wong, why don't you lead off?

   STATEMENT OF NICOLE WONG, ESQ., VICE PRESIDENT AND DEPUTY 
                 GENERAL COUNSEL, GOOGLE, INC.

    Ms. Wong. Thank you. Chairman Berman, Congressman Smith, 
and members of the committee, thank you for your continued 
attention on the issue of Internet freedom. I want to talk to 
you today about the importance of an open Internet. An open 
Internet is what allowed a national broadcaster in Venezuela to 
update daily newscasts on YouTube after Hugo Chavez revoked 
their broadcasting license because their opinions ran counter 
to his policies. An open Internet is what ensured the 
publication of blog reports, photos, and videos of hundreds of 
Burmese monks being beaten and killed in 2007 even after the 
government shut down the national media and kicked out foreign 
journalists.
    An open Internet is what brought the protests following the 
Presidential elections in Iran last summer to all of our 
attention, even after the government banned foreign 
journalists, shut down the national media, and disrupted 
Internet and cell phone service. But the continued power of 
this medium requires a commitment from citizens, companies, and 
governments alike. In the last few years, more than 25 
countries have blocked Google services, including YouTube and 
Blogger. The growing problem is consistent with Secretary 
Clinton's recent speech on Internet freedom when she cited 
cases from China to Tunisia to Uzbekistan to Vietnam.
    For example, our video service YouTube has been blocked in 
Turkey for 2 years now because of user videos that allegedly 
insulted Turkishness. In 2009, during elections in Pakistan, 
the Pakistani Government issued an order to all of its ISPs to 
block certain opposition videos on YouTube. And of course there 
is our experience in China, where the last year showed a 
measurable increase in censorship in every medium including the 
Internet.
    An open Internet, one that continues to fulfill the 
democratic function of giving voice to individuals, 
particularly those who speak in dissent, demands that each of 
us make the right choices to support a free and strong Internet 
and to resist government censorship and other acts to chill 
speech even when that decision is hard. As Google's deputy 
general counsel, part of my job is handling censorship demands 
from around the world guided by three principles: Maximizing 
access to information online, notifying users when information 
has been removed by government demand, and retaining our users' 
trust by protecting privacy and security.
    No examples received more attention than China in recent 
months. In mid December, we detected a highly sophisticated and 
targeted attack on our corporate infrastructure, originating 
from China with a primary but unsuccessful goal to access Gmail 
accounts. However, it soon became clear that what at first 
appeared to be solely a security incident was something quite 
different. Other companies from a range of businesses, finance, 
technology, media, and chemical, were similarly targeted.
    We discovered in our investigation that the accounts of 
dozens of Gmail users around the world who advocate for human 
rights in China appear to have been accessed by third parties. 
Let me be clear that this happened independent of the attack on 
Google, likely through fishing or malware placed on those 
users' computers. These circumstances, as well as attempts over 
the past year to limit free speech online, led us to conclude 
that we no longer feel comfortable censoring our search results 
in China. We are currently reviewing our business operations 
there.
    No particular industry, much less any single company, can 
tackle Internet censorship on its own. Concerted, collective 
action is needed to promote online free expression and reduce 
the impact of censorship. We are grateful for law makers, and 
in particular this committee's leadership, who have urged more 
companies to join the Global Network Initiative. As a platform 
for companies, human rights groups, investors, and academics, 
GNI members commit to standards that respect and protect user 
rights to privacy and freedom of expression. Additional 
corporate participation will help the GNI reach its full 
potential.
    Beyond the GNI, every one of us at the grass roots 
corporate and governmental level should make every effort to 
maximize access to information online. In particular, 
government can take some specific steps. First and foremost, 
the U.S. Government should promote Internet openness as a major 
plank for our foreign policy. The free flow of information is 
an important part of diplomacy, foreign assistance, and 
engagement on human rights. Second, Internet censorship should 
be part of our trade agenda because it has serious economic 
implications. It tilts the playing field toward domestic 
companies and reduces consumer choice. It affects not only U.S. 
and global Internet companies, but also hurts businesses in 
every sector that use the Internet to reach customers.
    Third, our Government and governments around the world 
should be transparent about demands to censor or request 
information about users or when a network comes under attack. 
This is a critical part of the democratic process, allowing 
citizens to hold their governments accountable. Finally, Google 
supports the commitment of Congress and the administration to 
provide funds to make sure people who need to access the 
Internet safely have the right training and tools. I want to 
thank each of you for your continued leadership in this fight 
against online censorship. We look forward to working with you 
to maximize access to information online and promote online 
free expression around the world.
    [The prepared statement of Ms. Wong follows:]<greek-l>Wong 
statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much.
    Ms. MacKinnon?

STATEMENT OF MS. REBECCA MACKINNON, VISITING FELLOW, CENTER FOR 
INFORMATION TECHNOLOGY POLICY, PRINCETON UNIVERSITY, COFOUNDER 
                    OF GLOBAL VOICES ONLINE

    Ms. Mackinnon. Thank you, Mr. Chairman and Mr. Smith, for 
the chance to testify today and for your leadership on this 
issue which has already begun to impact the behavior of a 
number of companies. After describing how authoritarianism is 
adapting to the Internet in ways that often involve companies, 
I will offer some policy recommendations. Regimes like China 
and Iran, and a growing list of others, usually start with the 
blocking of Web sites, but they also use a range of other 
tactics outlined in greater detail in my written testimony.
    They include cyber attacks against activist Web sites; 
deletion of online content by Internet companies at government 
request, which entails taking it off the Internet entirely. 
Surveillance is used in many countries that don't censor the 
Internet much if at all. In Egypt, for example, heavy 
surveillance of Internet users is justified as an anti-
terrorism measure, but is also used to harass, identify, and 
persecute peaceful critics of the regime. And finally there is 
the use of law enforcement demands in countries where the 
definition of crime includes political speech, which means that 
companies end up assisting in the jailing and tracking of 
activists whether or not they had actually intended to do so at 
the outset when they entered a market.
    So what do we do? At the top of my list of recommendations 
is corporate responsibility. In the fall of 2008, Google along 
with Yahoo and Microsoft launched the Global Network 
Initiative, a code of conduct for free expression and privacy, 
in conjunction with human rights groups, investors, and 
academic researchers like myself. The GNI recognizes that no 
market is without political difficulties or ethical dilemmas. 
Every company, every product, and every market is different. 
Therefore, we believe in an approach that combines flexibility 
with accountability.
    Fundamentally, however, it is reasonable to expect that all 
companies in this sector should acknowledge and seek to 
mitigate the human rights risks associated with their 
businesses, just as they and other companies consider 
environmental risks and labor concerns. Next comes legislation. 
Law may in fact be needed if companies fail to take voluntary 
action. However, it is important that any law be sufficiently 
flexible and global in scope to avoid becoming quickly 
ineffective or even counterproductive due to rapid 
technological or geopolitical changes.
    Meanwhile, I recommend some immediate steps. First, private 
right of action. It should be easier for victims to take action 
in a U.S. court of law when companies assist regimes in 
violating their rights. Second, we need to incentivize private 
sector innovation that helps support Internet freedom. Third, 
we need to continue revising sanctions and export controls. We 
should make it harder for U.S. companies to sell products and 
services to regimes with a clear track record of suppressing 
peaceful political and religious speech.
    However, our laws should not, on the other hand, bar 
companies from serving those who are risking their lives to 
peacefully voice dissent. The Treasury Department took an 
important step this week in issuing export licenses for free 
services and software to people in Iran, Cuba, and Sudan. Other 
activists and places like Zimbabwe and Syria are still out in 
the cold, and there remains the issue of paid services and 
equipment for individual use that can also help promote freedom 
of expression.
    Technical support: Congress deserves great praise for 
supporting development of tools and technologies that are 
helping people get around Internet blocking. But these tools do 
not counter other tactics regimes are also increasingly using. 
Our support, therefore, should also include tools and training 
to help people evade surveillance, detect spyware, and protect 
against cyber attacks. We also need to help people develop 
mechanisms to preserve and redistribute censored content that 
has been taken off the Internet. We should also help with 
platforms through which citizens around the world can share 
information and tactics to fight for Internet freedom and 
empower those individuals.
    Finally, Secretary of State Clinton has made it clear that 
Internet freedom is a core American value and policy priority. 
In reviving the Global Internet Freedom Task Force, the 
administration can improve coordination so that the U.S. 
Government agencies to not inadvertently constrain Internet 
freedom in the course of pursuing other policy goals.
    In conclusion, it is clear that the Internet has brought 
new challenges to all governments, most companies, and most 
parents for that matter. Mr. Chairman, I hope this Congress 
will work to ensure that our cybersecurity solutions, our child 
protection efforts, economic strategies, and business deals at 
home and abroad will all be compatible with a free and open 
global Internet. Thank you.
    [The prepared statement of Ms. MacKinnon 
follows:]<greek-l>MacKinnon statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. I am tempted to say easier said than done, 
but I hope we can do that.
    Dr. Wortzel?

STATEMENT OF LARRY M. WORTZEL, PH.D., COMMISSIONER, U.S.-CHINA 
            ECONOMIC AND SECURITY REVIEW COMMISSION

    Mr. Wortzel. Chairman Berman, Mr. Smith, members of the 
committee, thank you for the opportunity to appear today. The 
views I will present are my own. They are a product of my 
service on the U.S.-China Economic and Security Review 
Commission, decades of service as an Army intelligence officer, 
and decades of study of China. China is the origin of extensive 
and malicious cyber activities that target the United States. 
Our commission, in a contracted report, provided a case study 
of a penetration into the computer systems of an American high 
technology company.
    The study detailed the way the data was acquired and 
transferred to an Internet protocol address in China and what 
institutional and individual actors in China may have been 
involved. Now I am going to discuss three types of malicious 
Chinese computer network operations: Those that strengthen 
political control in China; those that gather economic, 
military, or technology intelligence and information; and those 
that reconnoiter, map, and gather targeting information on U.S. 
military, government, or civil infrastructure networks for 
later exploitation.
    The organizations in China most likely to have gathered the 
information or attempted to gather information about rights 
activists during the Google penetrations are those responsible 
for internal security, repression of the Chinese population, 
and control over the distribution of information. These are the 
Ministry of State Security, the Public Security Bureau, and 
subsidiaries of the Chinese Communist Party such as the Party's 
Central Propaganda Department.
    The second type of malicious activity is intended to gather 
information of military, technical, scientific, or economic 
value. Gathering this type of information may speed the 
development and fielding of weapons, improve technology in 
sectors of China's industries, while saving time and money in 
research and development, and compromises valuable intellectual 
property. The organizations of the Chinese Government with the 
mission and capability to conduct such activities span military 
and civilian agencies as well as the state owned companies in 
China's military industrial complex.
    Now, not all cyber-espionage in China is government 
controlled. There are plenty of cyber-espionage entrepreneurs 
who operate outside the government and who could be working on 
behalf of Chinese companies or state run science and technology 
parts. But let us be candid, when the Department of Justice is 
prosecuting several espionage cases involving the acquisition 
by China of defense technologies and military information and 
the same type of data is being stolen by cyber penetrations, a 
logical person would conclude that the vast majority of this 
activity is directed by the Chinese Government.
    In the third type of cyber activity, China's intelligence 
or military services penetrate computers that control our vital 
infrastructure or our military computer networks, reconnoiter 
them electronically, and map or target nodes in the system for 
future penetration or attack. Malicious code is often left 
behind to facilitate future entry. Regarding this third type of 
computer network penetration, General James Cartwright 
suggested that effects associated with a cyber attack could be 
in the magnitude of a weapon of mass destruction, and former 
Director of National Intelligence Mike McConnell recently made 
a similar comparison.
    Now, I believe the government should vigorously monitor and 
defend our Government computer and critical infrastructure 
networks. Congress also should put in place legislation that 
facilitates similar programs for industry. Our Government 
should work closely with allies and friends to combat malicious 
cyber activity, and we should ally with like minded nations to 
keep the worldwide web out of the control of some international 
body and authoritarian governments such as the one in China 
that would stop the free exchange of ideas and virtual freedom 
of association. Thank you for the opportunity to testify, and I 
will be pleased to respond to any questions the committee may 
have.
    [The prepared statement of Mr. Wortzel 
follows:]<greek-l>Wortzel statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much.
    Mr. Holleyman. For a second I thought I was in the 
Judiciary Committee.

 STATEMENT OF MR. ROBERT W. HOLLEYMAN, II, PRESIDENT AND CEO, 
                   BUSINESS SOFTWARE ALLIANCE

    Mr. Holleyman. Exactly, that is a good committee as well. 
Thank you, Mr. Chairman, for holding this hearing today, and 
Mr. Smith, other members of this committee. This is certainly a 
timely and important hearing, and the Business Software 
Alliance which represents leading companies in the software, 
hardware, and Internet arena welcomes the opportunity to 
provide its perspective. A number of the companies and 
individuals talking today have provided key aspects to today's 
hearing. I would like to talk about some of the challenges that 
we face as an industry in ensuring that the Internet is an open 
platform for communication.
    We are proud of the fact that the tools that companies--
largely American-based companies--have developed and have 
deployed that have allowed both the greatest economic 
opportunity and for individual and personal communication to 
disseminate around the world. The announcement just earlier 
this week that you referred to in your opening statement, Mr. 
Chairman, by the Treasury Department shows just how important 
it is to get communications tools into the hands of 
individuals, including in countries with repressive regimes.
    And the U.S. has an important role in the area of global 
cyber technology leadership and cybersecurity leadership. 
President Obama spoke to that issue in the Cyberspace Policy 
Review, and the international component of that, and the 
international leadership by the U.S. is critical. I would like 
to address today three issues: (1) the legal environments that 
restrict U.S. technology companies from foreign markets; (2) 
the tolerance of industrial theft of U.S. intellectual 
property; and (3) the threat of cyber attacks.
    First, let me address the market restrictions we are 
facing. Some governments are taking steps that would displace 
American technology from current and, more importantly, future 
and growing markets by implementing restrictive industrial 
policies. For example, the Chinese Government is pursuing 
indigenous innovation policies that are aimed at shutting 
foreign firms out of the market or compelling them to transfer 
their intellectual property and relocate their research and 
development to China.
    I was pleased to have an opportunity to testify late last 
year before Ms. Watson in the first subcommittee hearing that 
looked at this issue. And, Mr. Chairman, your own letter to the 
Chinese ambassador making it clear that this issue of 
indigenous innovation policy as a means of shutting American 
and other countries' companies out of the market not only in 
technology but for green development--for the most innovative 
technology--was an issue that demanded high level attention. 
Certainly the administration is making it such, but we have not 
yet achieved significant progress with China.
    Late last year, China attempted to mandate that all 
computers sold in the country had Green Dam filtering software. 
And again, as you said in your opening statement, Mr. Chairman, 
we were one of the industry groups that joined together across 
continents to call on China to reverse that policy because of 
its impact on security, privacy, and the free flow of 
information. Fortunately, the Chinese Government suspended this 
mandate, but it could return in the future.
    Other witnesses have addressed specific laws and policies 
that impose restrictions on the free flow of information, and 
some of these policies impede the ability of technology 
companies to operate in these countries. Both at home and 
abroad, U.S. companies are bound to follow the laws of the 
jurisdictions where they do business. In some instances, these 
laws confront American companies with a difficult binary 
choice: Stay in the market and comply with local law, or leave. 
We believe that remaining engaged in those markets is important 
wherever possible to do so.
    Second is the issue of theft of intellectual property. Mr. 
McMahon mentioned this in his opening comment. This is an 
important issue in many markets. China is probably the market 
where it is of the highest importance. This problem is 
restricting the ability of organizations--of companies 
operating out of the U.S.--and their workers to access foreign 
markets, and it harms the U.S. economy. Most software theft 
occurs when an otherwise legitimate business illegally copies 
software for its use. When that is repeated millions of times 
around the world, this conduct has a staggering cumulative 
effect.
    But more importantly, software theft distorts competition 
and it destroys American jobs. A company that steals 
productivity software for its use competes unfairly against a 
company that pays for it. Both enjoy productivity benefits from 
the software, but only one is bearing the legitimate cost. 
Which means, for example, that in a country like China, where 
only 20 percent of the productivity software is paid for, 
Chinese enterprises are enjoying an unfair advantage over their 
U.S. competitors who are paying for the licensed software.
    So this issue goes way beyond the IP industry, and in this 
case touches every business that is affected by a high-piracy 
country. And we believe that the U.S. has to use tough 
diplomacy and tough trade measures to attack these issues.
    And third is the issue of cyber attacks and cyber 
intrusions, one of the three prongs of this hearing. These 
intrusions and attacks are preventing the Internet from 
reaching its full potential, and unfortunately the cyber 
attacks experienced by Google and other companies as talked 
about today were not unique.
    In this era of increased interconnectedness, having 
commercial security practices as well as government attention 
to cybersecurity is vital to our economic and national 
security. Our companies are also among the leaders in building 
and implementing cyber technology. We support the 
administration's ambitious international cybersecurity 
strategy, and this has to be an international priority. No one 
country can do it alone. In my written statement I have listed 
seven steps that we would recommend for the U.S. and for any 
country to look at as a matter of law and working with the 
private sector to enhance cybersecurity.
    Let me simply say in conclusion, Mr. Chairman and Mr. 
Smith, that the Internet is growing and changing. A majority of 
Internet users reside outside the U.S., and that majority is 
growing rapidly. As leaders in Internet technology, U.S. 
companies have a toe-hold in many of these fastest growing 
markets. We believe strongly that it is both in U.S. foreign 
policy interest and U.S. domestic economic interest for U.S. 
technology companies to remain present in overseas markets as 
the next generation of the Internet is built out.
    And we want to work with this committee, with the Congress 
and with the government in ensuring that we have the ability as 
American companies to be the platform that provides these 
communications and information tools and to fight against the 
challenges that we face, and we thank you for holding this 
hearing. I would be happy to answer any questions you may have. 
Thank you.
    [The prepared statement of Mr. Holleyman 
follows:]<greek-l>Holleyman statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Well thank you very much, all of you. A 
lot of questions here. We may, I know I am going to want to 
have at least my shot at a second round and if others want to 
as well. I am going to recognize myself for 5 minutes, and then 
I am going to turn the chair over to Mr. Sherman while I have a 
meeting, but we will proceed. The Post this morning talks about 
Iran blocking foreign domestic Web sites--that is the 
Washington Post, not the New York Post--Iran blocking foreign 
domestic Web sites to curb antigovernment activists.
    It raises an issue that Ms. MacKinnon touches on in her 
testimony and that we have been thinking about a lot in terms 
of the Iran sanctions bill and export control reform. In 
addition to the Treasury license which was granted this week, 
what changes are needed to our Iran embargo to help facilitate 
protection for the dissenters in Iran? And the flip side of 
this is, are there technologies that sometimes U.S. 
subsidiaries, sometimes companies located in allied countries, 
are exporting to Iran that may aid their ability for the 
government to suppress communication? Do any of you just want 
to take a crack at that?
    Ms. Mackinnon. I am happy to take a crack at beginning, I 
am sure there will be other thoughts as well. Speaking to 
Iranian bloggers and activists, members of the green movement 
in Iran, people raise a number of issues, and they very much 
welcome the initial steps by the Treasury Department in making 
it legal now for Google and many other companies to provide 
access to their free services, but there is concern that 
Iranian activists, it is still illegal for American web hosting 
companies to provide them paid web hosting service. So if an 
Iranian green movement Web site wants to be hosted outside of 
Iran, they cannot purchase that space on a web hosting service 
directly because it is illegal for that American company to 
serve them.
    Chairman Berman. Illegal because our codification of our 
embargo?
    Ms. Mackinnon. Absolutely.
    Chairman Berman. So an amendment to that could deal with 
that problem?
    Ms. Mackinnon. Right. And also because this latest step 
only handles free services, for instance another issue that 
Iranian activists face is the ability to buy domain names 
outside of .IR, which is controlled by the government, they 
can't buy domain names very easily directly from international 
registrars. So they have to go through third parties, people 
exiled, and so on, and so what that leads to is that their 
domain names often get stolen by hackers and others, and it 
makes them much more vulnerable, it makes it much more 
difficult for them to run Web sites outside of Iran that are 
accessible.
    Chairman Berman. Explain that a second, why would it make 
it more usually subject to theft?
    Ms. Mackinnon. So if you cannot control your account 
directly.
    Chairman Berman. I see, all right.
    Ms. Mackinnon. You are relying on second or third parties.
    Chairman Berman. There are intermediaries getting into this 
transaction.
    Ms. Mackinnon. It makes it much harder to maintain control 
over your domain name. And so there have been some instances 
lately of green movement Web sites that got hacked, and then 
their domain names were stolen, but they couldn't easily regain 
control because they couldn't interact directly with the domain 
name registrars and so on because it wasn't legal for the 
domain name registrars to do that. So there are a number of 
issues like that. Activists also point to the issue of----
    Chairman Berman. Tell you what, let me interject here only 
because I am going to run out of time. I am actually quite 
serious about trying to pursue some specific things we need to 
do to change our law because I think we are going to have an 
opportunity to in the Iran legislation, and so I will follow up 
with you.
    Ms. Mackinnon. Right. And so the point is that there are a 
lot of paid services that individuals need access to in order 
to really speak out in the way they need to.
    Chairman Berman. I got it.
    Ms. Mackinnon. And also individual equipment, access to 
satellite phones that enable people to access the Internet 
through satellite and so on, the individual ability to purchase 
that.
    Chairman Berman. I am going to follow up with you; we are 
going to get the specifics and move on that. In my last 20 
seconds, Mr. Holleyman, how come more of your members haven't 
joined the Global Network Initiative?
    Mr. Holleyman. Mr. Chairman, I appreciate the question. 
Certainly we have discussed this with a number of our members. 
The Global Network Initiative, as I understand it, was 
initially created to deal with companies who were functioning 
mostly as Internet service providers. And so the three largest 
American companies working in that area, Google, Microsoft, and 
Yahoo----
    Chairman Berman. Mr. Holleyman, I hate to do this to 
myself, but my time is expired, so we will follow up on it.
    Mr. Rohrabacher. I would ask unanimous consent that the 
chairman be given an extra 30 seconds so we can hear the answer 
to that question.
    Chairman Berman. Okay. Thank you.
    Mr. Holleyman. It was an issue that the GNI was initially 
started to deal with companies who were working as Internet 
service providers. There are discussions underway with the 
executive secretariate and others at the GNI about potentially 
expanding it to deal with companies in a broader group of 
technology functions. And many of our companies are part of 
discussing that, but those who are the ISPs, for whom it was 
created, are part of that effort. Other companies certainly are 
working actively today with the U.N. Compact as well, so they 
are looking at it in a variety of ways.
    Chairman Berman. My time is expired. I recognize the 
gentleman from New Jersey, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you very much, Mr. Chairman. Let me ask a 
few questions of the panelists, and thank you for your 
testimony and for your work following the White House decision 
to support Google's action to no longer censor searches, 
Microsoft made it very clear that it will stay in China, and it 
was quoted in Forbes, ``<greek-l>' deg.We've been quite clear 
that we are going to operate in China,'' said Microsoft CEO 
Steve Ballmer. On January 22nd Forbes reports that Ballmer 
suggested in his speech to oil company executives that 
``Google's decision to no longer filter out Internet searches 
objectionable to the Chinese Government was an irrational 
business decision.<greek-l>'' deg. <greek-l>``' deg.The U.S. is 
the most extreme when it comes to free speech.''<greek-l> said 
Balmer.'' deg.
    Frankly, I find that outrageous. I am not sure how the 
panel feels about that. When I asked the four top Internet 
companies, more than just Internet, Microsoft, Cisco, Yahoo, 
and Google, to testify back in 2006 and it took us months to 
get them to come voluntarily, which they did, we had that kind 
of statement from each of those representatives. It was 
disheartening, both to myself as chair and to Tom Lantos, who 
was the ranking member. We left no stone unturned in trying to 
point out the disservice that that did to the human rights 
activists. And now Mr. Ballmer, with that kind of statement, 
shows that there has been no learning curve or very little, and 
I would appreciate any thoughts that any of you might have on 
that statement which I find unconscionable.
    Secondly, Harry Wu had testified that Cisco said that the 
Chinese Secret Police were sold by Cisco Police Net, which 
substantially enabled the detection, arrest, torture, and 
incarceration of political dissidents, labor leaders, and 
religious people as well. As a matter of fact, Ms. MacKinnon, 
he quoted your Web site in his testimony. Obviously, much 
damage has been done. As we all know, with any high tech there 
always needs to be upgrades, there always need to be 
technological enhancements, as new products come online.
    And the issue, as awful as it exists today, the cyber 
police are combing the Internet looking for anybody who puts in 
the word Dalai Lama, Falun Gong, underground Christians, 
Uighurs, you name it. On the security side as well there are 
all kinds of mischief being done searching for anybody who has 
a contrary view to Beijing. What would you suggest we do vis-a-
vis a Cisco in order to mitigate even more harm being done? At 
the end title of our Global Online Freedom Act, we originally 
had a dual-use effort, to try to stop dual-use products, I 
should say, that could be abused by police. It is now a 
feasibility study because several members objected to it, but I 
just want to ask you if you could, I don't have much time, 
comment on those two issues first, Ballmer and Cisco.
    Ms. Wong. So as a member of the Global Network Initiative 
with Rebecca and both Yahoo and Microsoft, we were frankly very 
puzzled by the comments that were reported from Mr. Ballmer, 
because they are not consistent with the conversations we have 
been having at the GNI for the last 3 years, and certainly we 
would never minimize the human rights impact of censorship in 
China or any other country. We do think that the forum for GNI 
provides a really important role for companies to talk about, 
what they are seeing on the ground in all of these countries, 
and hopefully it continues to have that role.
    Mr. Smith. Ms. MacKinnon?
    Ms. Mackinnon. I was very puzzled as well by Mr. Ballmer's 
statement because I too felt that it really contradicted a lot 
of the work that other Microsoft executives have been doing in 
the Global Network Initiative. And it certainly is true that 
the GNI is not seeking to do a one-size-fits-all, that in all 
cases you have to do X. Every business is different, these 
businesses need to make conscious decisions on their own based 
on precisely what their products are and precisely what their 
business relationships are. So we are not saying that Microsoft 
should follow exactly what Google does in all situations. 
However, Microsoft at a working level has been trying to 
implement greater transparency and human rights assessments in 
their businesses in China and elsewhere. So Mr. Ballmer's 
statement was indeed extremely puzzling.
    Mr. Wortzel. Businesses mitigate risk often without direct 
concern for human rights or national security, and that is 
where some of these export controls come in. But dual-use 
items, I would just tell you, are very difficult. I mean I had 
an experience in a plant in China, or a manufacturing facility, 
that was working on pollution control systems. And I looked 
inside the router boxes and found routers that were coproduced 
by a major American defense company and ten miles up the road 
the partner of that defense company had a Chinese electronic 
warfare and electronic countermeasures regiment in its yard 
being outfitted with the same routers, so I would just say it 
is a difficult problem.
    Mr. Smith. I see I am out of time, but if we could go back 
in the second round to Cisco and some additional questions.
    Mr. Sherman [presiding]. Thank you. My first question is 
for Ms. Wong; it may be a step outside the general scope of 
these hearings. I stumble across illegal pirated works on the 
Internet, full Bruce Springsteen albums, entire seasons of 
current television shows available online, and sometimes they 
are surrounded by Google ads. Now, I understand that it is 
Google's policy to prohibit users from displaying Google ads 
alongside unlawful content, and I would like to know how Google 
is enforcing that policy. When you get a take-down notice for a 
copyright or trademark owner, do you automatically remove the 
ads placed next to the infringing material? And how long does 
it take for you to remove the illegal material and the 
advertising?
    Ms. Wong. So, of course for both business and legal 
reasons, we feel very strongly about protection of intellectual 
property and the removal of illegal content from our systems. 
We build our systems with both automated processes as well as 
manual processes to make sure that we do that well. I don't 
know the specific take-down times that you are asking me for, 
but I am happy to come back.
    Mr. Sherman. I am going to ask you to supplement your 
answer for the record.
    Ms. Wong. Sure.
    Mr. Sherman. But is it your policy that when you have 
unlawful material, you take down the ads?
    Ms. Wong. When we identify unlawful material where our ads 
are showing, it is our policy to remove them.
    Mr. Sherman. I will ask you to respond for the record to 
the more detailed portions of the question. Mr. Holleyman, you 
asked us to get tough. Businesses are always coming to Congress 
and asking us to get tough, and then when you ask them for 
specifics they basically ask that we beg in a louder voice, 
which is not effective with China. Business communities are 
totally unwilling to say, Well why don't we have a week where 
we block our ports to Chinese imports? Are you proposing 
anything tough or are you like other businesses, business 
representatives just wanting us to beg?
    Mr. Holleyman. We believe that a record needs to built very 
quickly that is completely solid in terms of the economic harm 
that is being caused to the U.S., and particularly in my 
reference to the unfair subsidies that are effectively existing 
for companies outside the U.S. who are using illegal software, 
and we know that there are Members of Congress who are asking 
for those to be built. And then we think that we need to take 
appropriate action.
    Mr. Sherman. Does taking appropriate action actually do 
anything, or are you just asking us to beg with big stacks of 
legal documents?
    Mr. Holleyman. No, no, I mean we think----
    Mr. Sherman. Are you proposing action that would in any way 
diminish Chinese access to U.S. markets or impose taxes on 
Chinese goods coming into our markets?
    Mr. Holleyman. We are proposing that the U.S. use the 
bilateral mechanisms we have and the multilateral through the 
WTO.
    Mr. Sherman. I guarantee delay and failure unless you are 
willing to support, and the business community is ready to 
support, immediate, you know, action at the ports on the 
ground, real action. These bilateral, you know, we will throw 
paper at them, they will throw paper at us, nothing is going to 
happen. And my next question is rather, you know, requires a 
technical knowledge of the Internet, and I used to look around 
the audience for someone with a plastic pocket protector and 
figure that was the person, but I am looking, I can't find 
anybody in the audience, so I will address this to Mr. 
Holleyman unless there is someone else with a greater technical 
knowledge.
    And that is, in a war between a group of software engineers 
that are trying to build a wall and a group of software 
engineers who are trying to poke holes in the wall, who has got 
the upper hand? It would seem to me that you just have to poke 
one hole in the wall, one way for the word to get around to 
Chinese citizens as to how to have access to the real Internet. 
How difficult is it for us to build these holes?
    Mr. Holleyman. Our experience in a whole host of areas is 
that it is always possible to punch a hole. And whether it is 
just in general security technology, it is always possible to 
do it. It is not easy, but it happens. And the converse of that 
is that we look to build more secure systems in the U.S. to 
prevent attacks. We know that holes will be punched, but we 
have to keep building in an arms race to build more secure 
technology.
    Mr. Sherman. I see my time is expired. I will recognize the 
man from California, the outstanding representative Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman. I think what we 
are discussing today actually goes to the heart of a 
contradiction, and you can't treat gangsters and tyrants as if 
they are the same as democratic leaders and honest people and 
expect there not to be some problem developing. And this is 
what we are talking about here today. China is a vicious 
dictatorship. They may well have had a lot of economic reform 
in the sense that they have had economic progress, but there 
has been no liberalization whatsoever politically.
    And we have our business community, you know, stepping on 
themselves trying to get over there to make a profit dealing 
with these gangsters. Now, Mr. Chairman, we have got to come to 
grips with that. The corporate world isn't going to make these 
decisions on their own. They are looking to us as 
representatives of the democratic society that we represent to 
set the ground rules because they aren't able to do it 
themselves because stockholders are clamoring for profit et 
cetera. Google is making an attempt, but again, announcements 
are one thing, actually implementing policies are another. Let 
me ask one thing. Are religious groups as well, like the Falun 
Gong, being discriminated against finding themselves with 
Internet restrictions in China?
    Ms. Mackinnon. I can answer your question about the Falun 
Gong. Yes, Falun Gong material is heavily censored on the 
Chinese Internet.
    Mr. Rohrabacher. So Falun Gong, the Uighurs we know are, 
the Tibetan Buddhists are. So we could say that if religion 
manifests itself in some actual power in a society, we have got 
a regime that is willing to use a heavy hand to try to stamp 
that out or to restrict their abilities to utilize technology 
in their freedom. I don't know, again the central problem here 
is that we are trying to treat China as if it is Belgium, and 
it is not. China is not a democratic country, and we should 
have different rules.
    When we talk about World Trade Organization and MFN, what 
we are really talking about is trying to get a dictatorship 
into the same rules that apply to democratic countries. You 
know, this is the challenge we face, I think it is not one that 
we can solve. I think that frankly dictatorships do not deserve 
the same trading rights and the same considerations that we 
give to democratic countries. As I say, it is the concept of 
free trade between free people.
    At the same time we must make sure that we are siding with 
the people of China. The people of China, I happen to believe, 
are our greatest ally in the cause of world peace and 
democracy. Because if we are going to have world peace and the 
promotion of freedom in the world, the people of China are on 
the front line, and what we have to make sure that everybody 
knows is the people of the United States and our Government 
and, yes, our corporations through government mandates are on 
the side of the people of China and not the dictatorship.
    Which means that when the companies fell over themselves 
trying to sell computers to the police of China, I am sorry, 
yes they could say, Well the police are just a neutral thing, 
they are just law and order. No it is not. The Gestapo and the 
police in Nazi Germany were not the same as the police in 
London or in the United States. So, Mr. Chairman, I am looking 
forward and I want to congratulate you, Mr. Chairman, and Mr. 
Smith of course, for this Global Online Freedom Act and some of 
the really--and we have gotten to the point and to the heart of 
the matter on this trade issue with China, and I am a proud 
supporter of the Global Online Freedom Act.
    And I would hope, and that is why I wanted you to have an 
extra 30 seconds to answer that, I would hope corporate America 
starts making some moral stands in that way too when our 
Government is trying to stand up for what this country is all 
about. If it wasn't for our Government and our country standing 
up for these principles of freedom, none of your corporations 
would have the ability to make any money, none. Because we 
wouldn't have freedom in this country, we wouldn't have a free 
enterprise system. So it behooves you to sort of perhaps get 
behind great efforts like this in Congress to stand up for 
American principles. Thank you very much, Mr. Chairman.
    Mr. Sherman. Thank you, Mr. Rohrabacher. We have another 
representative from the great state of California, the great 
Lynn Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. This is so 
frustrating. The United States is not a vicious dictatorship, 
we know that. But we have citizens right here in our own 
country, including very young folks, kids almost, who can break 
into our own Department of Defense computer systems and 
information systems, and do from afar. So is this even possible 
in this world of ours of so many smart people, so many ways 
around everything to protect information?
    And certainly, you know, there is a difference between 
protecting information through security and economic bottom 
line and allowing people to have freedom of speech, I mean they 
go hand in hand. But when we open up for freedom of speech do 
we then open up even more for the ability to be hacked? Where 
do we go with this and what is it costing us and what is the 
tradeoff? I know that is very big, but that is as technical as 
I can get. Mr. Holleyman?
    Mr. Holleyman. Ms. Woolsey, thank you for the question. I 
think we know that as we have opened up the Internet and opened 
up computing technology we have opened up vast channels for 
positive information and positive growth. At the same time, 
that interconnectedness has posed vulnerabilities, and it 
really is very much in the area of cybersecurity an arms race 
to build more secure systems because the bad elements, bad 
actors, whether they are state-supported or individuals, have 
sophisticated technology.
    I was in San Francisco last week with 16,000 people for the 
RSA Security Conference. Howard Schmidt, who is the President's 
new Cybersecurity Advisor--the first in the White House--spoke 
quite well about the steps we need to take to make us more 
secure. There are billions of dollars that the U.S. is 
spending, both in working with the private sector but also to 
build more secure networks in the U.S. and to make sure that we 
have full cybercapacity.
    But at the heart of your question is an anomaly, that the 
U.S. is the largest source of cyber-criminal activity in the 
world, and that is because we are the most connected country in 
terms of our business work, so it is not surprising. China is 
number two. Germany and France are three and four. So this is 
ultimately a global problem, it is going to take global 
solutions, and we will not be able to block the cyber 
intrusions completely. What we have to do is make sure though 
that we continue to build the best technology, build private 
sector solutions, and it is neither one nor the other. We will 
have more interconnectedness, but through that we will have 
more vulnerabilities.
    Mr. Wortzel. Ms. Woolsey?
    Ms. Woolsey. Yes?
    Mr. Wortzel. Let me say that just as the government has 
tried to approach this through ensuring that on Federal systems 
you have trusted hardware and trusted software developed here 
in the United States, there are things you can do, at far 
higher cost. But if your software research and development, and 
I am just going to use China, if your software research and 
development is in China and your hardware is being 
manufactured, researched, developed, and manufactured in China, 
and people who do this work in China move freely between 
companies and government agencies, you are never going to be 
secure. The best you can do is monitor what goes on on your 
net.
    Ms. Woolsey. Ms. MacKinnon?
    Ms. Mackinnon. Well, Ms. Woolsey, I think you really do hit 
the heart of the problem about this balance between the need 
for security and the need for freedom. And really, you know, 
this goes back to when our own country was being founded and 
you had the arguments between Thomas Jefferson and Hamilton 
about where do you get the right balance between freedom and 
security in order to have both a secure and adequately free 
society. And we are now kind of taking that argument from a 
country level to a global level on the Internet, and how do we 
get that balance right globally? Because we can't divide it up 
country by country.
    And Mr. Rohrabacher pointed out to the problem of treating 
markets all like they are Belgium. Part of the problem too is 
that our technology treats all countries like they are Belgium. 
So Nokia, for instance, when it sold its equipment to Iran, its 
equipment by default included a lawful interception gateway, 
which when implemented in the context of proper judicial 
oversight over the police and what not, is deemed, you know, 
was required in Europe for Nokia to include that technology in 
its phones and in its systems. But you take that into a place 
like Iran and you have got 1984.
    Same with the Calea requirements in American made routers 
and so on, the communications assistance for law enforcement. 
There are technical requirements that we build into our 
equipment on the assumption that this equipment is going to be 
used in a society that has oversight, but then that equipment 
is sold into a society where there is no oversight and where 
crime is defined broadly to include political and religious 
speech. So how do we prevent that from happening?
    Ms. Woolsey. You are supposed to tell us. You are the 
witnesses.
    Ms. Mackinnon. Well, it is difficult. We need to be 
thinking about, you know, the systems that we are building and 
we are assuming are going to be universally used, how are those 
systems going to get distorted when they are applied globally, 
and do we need to rethink what we bake into our technology as a 
default?
    Mr. Sherman. I think the time of the gentlelady is expired. 
We have yet another talented Member from the State of 
California, the ranking member of the Terrorism, 
Nonproliferation<greek-l>, deg. and Trade Subcommittee, of 
course the best subcommittee of the full committee, and that is 
of course Ed Royce.
    Mr. Royce. Thank you, Mr. Chairman. Dr. Wortzel, in reading 
your testimony, one thing I think jumps out to all these 
Californians here today, or should, and that is your coverage 
of the Chinese researchers at the Institute of Systems 
Engineering of Dalian University of Technology and their 
published paper on how to attack a small U.S. power grid 
subnetwork in a way that would cause a cascading failure of the 
entire U.S. West Coast power grid. How helpful in terms of that 
university study.
    Also, just reading through your testimony and listening to 
your remarks, Chinese military officers noted that scholars 
hold differing opinions about whether a computer network attack 
may constitute an act of war. They also note the frequent 
difficulty in accurately identifying the source of cyber 
attacks and argued that the source must be clearly identified 
before a counterattack could be responsibly launched.
    I am going back to your quote from General James 
Cartwright, who was commander of the U.S. Strategic Command, 
and he is currently vice chairman of the Joint Chiefs of Staff. 
He said, ``I don't think the U.S. has gotten its head around 
the issue yet, but I think that we should start to consider 
that effects associated with a cyber attack could in fact be in 
the magnitude of a weapon of mass destruction.''
    And I would ask you in light of those comments, and in 
light of the fact, as you say, that China currently is thought 
by many analysts to have the world's largest denial of service 
capability and you go through exactly what that would mean, let 
me ask you this. It was reported that the White House National 
Security Council downgraded China in our country's intelligence 
collection priorities from priority 1 to priority 2. In your 
opinion, is China less of a security threat today than it was 
last year or the year before, and is the decision to downgrade 
China wise in your opinion? Commissioner?
    Mr. Wortzel. Mr. Royce, it is and remains, according to the 
director of National Intelligence, the director of the FBI, the 
number one intelligence threat to the United States. It is only 
one of two countries that can put nuclear warheads on the 
United States, and we have no existing arms control 
architecture with China. So it should absolutely be the number 
one priority.
    Mr. Royce. Thank you, Commissioner. I will also ask you, we 
have heard reports that the cyber attacks on Google and other 
countries originated from within China, but officially, many 
have danced around China's role, or at least the Chinese 
Government's role in this, right? So for a minute if we were to 
be frank, were these attacks sponsored by the Chinese 
Government?
    Mr. Wortzel. I don't believe that the Chinese Government 
has any interest in how Google fares inside China. They have an 
interest in making sure that Baidu, which is partially owned by 
them, does well. So if Google has code stolen, I am not a 
lawyer, I don't have to argue it in court, I am an intelligence 
officer, I am going to analyze who could do it, who profits, 
what might happen. I have very little doubt that is who did it. 
And with respect to this, the information on rights activists, 
I couldn't tell you if it was the Ministry of State Security or 
the Public Security Bureau, but it was the Chinese Government
    Mr. Royce. Thank you. Thank you. We have heard much on 
China, I think rightfully so. I am equally concerned on the 
attacks and the persecution especially of Vietnamese cyber-
dissidents. There the government continues its crackdown on 
those that blog on democracy and human rights. The Communist 
government there removes some postings, but more problematic is 
their resorting to violence in the most extreme cases, and I 
was wondering, and I think I will ask this of Rebecca MacKinnon 
from Princeton University's Center for Information Technology 
Policy, I would ask you if you could speak on how bloggers 
could evade detection from authorities when they want to talk 
about free speech. How do you get around that kind of?
    Ms. Mackinnon. Well, there are tools, anonymity tools. One 
is called Tor, which is an open source tool, and there are a 
number of others, that help you disguise your IP address as you 
access a Web site. So there are methods, and there is a range 
of other methods as well that people who have gained 
instruction and awareness can use. But many people are not 
sufficiently aware of how to cover their tracks on the 
Internet, and end up taking one measure but not another 
measure, end up being under surveillance because they 
downloaded some software that had spyware in it, and so on.
    So it is very difficult to evade detection, although it is 
possible. But there is also a lot of other issues too related 
to how social networking services, like Facebook to just give 
one example among many others, how they handle their privacy 
policies, and to make sure that not only are they to the liking 
of American teenagers but that also that American companies 
with global Internet services have really done a human rights 
stress test on these services to makes sure that certain 
security services can't take advantage of them.
    Mr. Sherman. The time of the gentleman has expired.
    Mr. Royce. Thank you. I thank all the witnesses.
    Mr. Sherman. I will point out to the witnesses that the 
statement that America does not torture applies only to the 
executive branch; the chair has announced his intention to do a 
second round. And demonstrating that not all wisdom comes from 
California, we now have an outstanding member of the committee, 
the gentleman from New Jersey, Mr. Sires.
    Mr. Sires. Well thank you very much. I was getting a 
complex, Chris and I. I am just wondering, Ms. Wong, how much 
negotiating powers does a company like Google have when you 
have foreign governments that have these sense of policies. I 
mean do you have any leverage at all?
    Ms. Wong. It is a very good question. And as a single 
company, it is based on your ability to engage that government 
and hopefully having someone who is reasonable on the other 
side, and that is certainly not always the case. One of the 
reasons that we were one of the founding members of the Global 
Network Initiative is actually to improve our ability to deal 
with these governments, so that you would have a set of 
companies that could approach a government about policies and 
as a united front tell them that you were not willing to do 
certain types of censorship or not willing to deal with some of 
their more restrictive laws. But it is very difficult and 
different in every country.
    Mr. Sires. Well, you know, as I looked at--I am originally 
from Cuba and I am always very interested in the process there. 
I mean only last year did they allow cell phones on the island. 
You can imagine the government how they restrain information, 
and now we have a situation where somebody was doling out 
computers and he is in jail. How does a private company and 
government work together to prevent this stuff from happening? 
I mean they could care less.
    Ms. Wong. Right. From a company perspective, what we do is 
do a human rights impact assessment before entering a country, 
before deciding to put people on the ground. So we will 
actually look at a country in terms of what is the rule of law, 
what are their censorship laws like, what are their government 
surveillance laws like, to know it before going in or offering 
a product there exactly what we might be in for in terms of 
dealing with that government or regime. That is one step.
    We have had in the past issues where we actually couldn't 
come to agreement with other governments and actually have 
found that our Government through the State Department and 
other areas were extremely helpful in being a partner with us 
to intercede in those discussions. And that is one of the 
reasons in my recommendations in my testimony I talk about 
using this making freedom of expression part of our foreign 
policy, making it part of our trade agreements, which gives 
both us and our Government a better platform for having those 
conversations.
    Mr. Sires. Well thank you very much. Dr. Wortzel, we are in 
the middle of a big cold war here, and I just wanted your 
opinion on where you think America is at in terms of awareness 
of how serious this issue is. I mean we have bad economic 
times, we have issues that we are working on, but is America 
really focusing enough on this new cold war that is happening 
today? This could have repercussions beyond, you know, what we 
can even think.
    Mr. Wortzel. Well, first of all, it is very different from 
the Cold War in the sense that we don't have, you know, the 
containment policy against China. We are heavily engaged. But 
we are certainly already engaged in a cyber war. We are 
certainly already engaged in a military competition and space 
competition, and at the same time we are heavily dependent on 
each other in trade, banking, and finance. So I think you have 
to be very careful how you navigate your way through that. I 
think the public needs to be aware of the threats. Much of what 
the Congress and the American people thought would happen by 
getting China into the World Trade Organization and opening 
normal trade relations with it in terms of democratizing did 
not occur.
    Mr. Sires. Did not.
    Mr. Wortzel. It did not occur, it did not democratize, it 
got worse, as a matter of fact. So it has a very free economy, 
or a reasonably free economy that is growing, but more 
effective repression. So I think----
    Mr. Sires. And it comes to--I hate to interrupt--but it 
comes to my point that I hate to see the China model become the 
model throughout some of these countries.
    Mr. Wortzel. Well, I think you are absolutely right there, 
and it takes careful export controls and careful controls over 
what we do in terms of trade.
    Mr. Sires. Thank you very much.
    Mr. Wortzel. Thank you.
    Chairman Berman. The time of the gentleman is expired. The 
gentleman from Arkansas, Mr. Boozman, is recognized for 5 
minutes.
    Mr. Boozman. Thank you, Mr. Chairman. I have had a number 
of small businesses who have been adversely impacted by unfair 
business practices as I ventured out into the global market. 
And then just in general, I know that it has been brought up 
previously, but I really am concerned, I guess I don't 
understand the ability for a Chinese counterfeiter to use 
Google advertising to sell its products, to buy that trademark 
and purchase the trademark of the company involved and then 
sell the products.
    I think there has been litigation in the past, here in the 
United States, Geico, American Airlines. But for the small 
businesses, the people that don't have the deep pockets, the 
people that don't have the ability to litigate and go through 
that long process, it is very, very difficult. So my question 
is, why can't we have the same policy? Don't sell another 
company's trademark to counterfeiters. I mean I just don't 
understand that. So if you all could comment on that it would 
be appreciated. But these are the kind of things that have to 
be worked out in the future as the world becomes smaller. It 
just seems very, very unfair, and so if you would comment I 
would appreciate that.
    Ms. Wong. So our trademark policies permit advertisers who 
come to the Google adware system to advertise based on certain 
keywords. We actually have a very robust process that is both 
automated and manual to try and prevent the misuse of 
trademarks and to assist trademark owners in protecting their 
rights. Having said that, there is a freedom of expression 
component on being able to advertise on particular keywords. 
Take apple for example. An advertiser who wants to advertise on 
the word apple, we have to be able to detect what they mean, 
whether they are in competition with the computer or with the 
fruit. And so that type of process is something that we are 
working on all the time to improve.
    Mr. Boozman. So if a business owner, once they establish 
that there is a problem, and these things are sometimes very 
cut and dried, then you do take steps and fix the problem 
immediately?
    Ms. Wong. Yes, we do have both an automated and a full team 
that is dedicated to resolving those issues.
    Mr. Boozman. Okay. Would the rest of you all agree? Mr. 
Holleyman?
    Mr. Holleyman. Congressman, I can't comment on those 
specific policies. What I can comment on though is the broader 
question, which is, each of your constituents, businesses large 
and small, who have competitors in a high-piracy country like 
China have a disadvantage against their Chinese competitor who 
is using the same productivity tools but who, in the case of 
China, 80 percent of those businesses are not paying for it 
while your constituents are. And so this is an issue that goes 
well beyond whether you are in the software industry or the 
technology industry, but it is unfair competition, and in 
addition to the specific cases related to ads we need to look 
at this broader impact that goes to every district, every 
business in this country.
    Ms. Mackinnon. Just briefly, to put this in a broader free 
expression context as well, there have been some concerns, 
particularly there have been some discussions about policies 
and laws in some European jurisdictions, and there is also the 
ACTA, the Anti-Counterfeiting Trade Act, that is a state secret 
so we don't know what is really in it. But one of the things 
that sometimes is advocated by copyright holders, who certainly 
deserve to have their intellectual property protected, is that 
greater liability be placed on carriers and platforms to censor 
and surveil their users in order to prevent copyright theft.
    But at the same time when putting those mechanisms in 
place, this comes back to the law enforcement issue that I was 
raising earlier, it also gives repressive regimes an extra 
excuse to surveil and censor and put liability on carriers to 
surveil and censor for political reasons as well. So we need to 
make sure that as we are seeking to protect legitimate business 
interests we are also not providing extra tools for repression 
because they are sort of dual use in that way. Because a lot of 
governments justify their censorship and surveillance with the 
excuse of child protection, law enforcement, and copyright 
protection.
    Mr. Boozman. Thank you, Mr. Chairman.
    Chairman Berman. In fact, I would ask the gentleman if I 
could suggest unanimous consent that he have 1 additional 
minute and ask him if he would yield to me on this issue that 
he is raising.
    Mr. Boozman. Thank you, sir.
    Chairman Berman. I thank the gentleman for yielding. I 
actually hear stories that there are people who in the name of 
freedom of expression think that every potential protection of 
copyrights or patents or trademarks that is suggested could 
theoretically and potentially, if taken too far, impinge on 
first amendment rights and therefore oppose any single and 
every single effort to protect intellectual property. Have you 
ever come across such people?
    Ms. Mackinnon. All the time.
    Chairman Berman. Okay.
    Ms. Mackinnon. I do not count myself among those people.
    Chairman Berman. Good.
    Ms. Mackinnon. I believe we need to find the right balance. 
I believe there need to be solutions, we just need to be 
mindful in grabbing at solutions that we are thinking about the 
larger context and how some solutions can be misused.
    Chairman Berman. They can. Thank you. And just, I will take 
that last 5 seconds. Ms. Wong, could you do me a favor and take 
a look in the context of Mr. Boozman's questions about the 
misappropriation of Rosetta Stone's trademark on the Google 
process? People have come to us about that, and this is a good 
place to do my case work.
    Ms. Wong. I don't have the specific background on it, but I 
am happy to come back to you.
    Chairman Berman. Thank you very much. My time is expired. 
The gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. And thank you again 
to the esteemed panel. I had to step out for a while so if I 
repeat something that may have been touched on, I apologize, 
but I just wanted to get back to that issue of piracy of 
intellectual property and what it costs America and how we can 
deal with it. Ms. Wong, maybe you could start. How does Google 
approach this, whether it is films or music and people who use 
Google to, either in this country or abroad, to pirate 
intellectual material, what is Google's thoughts on it and what 
is the strategy for dealing with it both here and abroad?
    Ms. Wong. So as a technology company and one with a good 
deal of important software for us, we absolutely believe in the 
protection of intellectual property, and we think there is a 
significant legal infrastructure for protecting intellectual 
property which we think is appropriate. To Ms. MacKinnon's 
statement earlier though, we also believe that there has to be 
a balance. And so part of our reason for being here at this 
meeting is to talk about the lack of a similar infrastructure 
for platforms for free expression, because we think that that 
is actually the area where in the past the legislatures have 
not paid as much attention. We do believe in the protection of 
intellectual property. We also believe in the balance that 
permits a continuing and vibrant platform for free expression.
    Mr. McMahon. So how will you balance that in China and 
particular where, you know, estimates are, and I know 
Congressman Sherman talked about this, but, you know, 82 
percent of all software products purchased in China were 
obtained through intellectual property piracy, many through the 
Internet of course and through using the Google platform to do 
it. How can you help us protect that American interest, that 
vital American interest?
    Ms. Wong. Yeah, well this is one of those areas where 
partnership with our Government is obviously really important. 
Our experience in China was interesting because we were 
competing with their homegrown search engine, Baidu, which owes 
a great deal of its popularity to the free download of licensed 
music. We recently offered, or last year I guess, started doing 
our own music download service all with licensed music, and 
tried to set an example in that way that users we thought would 
appreciate, you know, legitimate licensed music. That has not 
yet proven to help us very much in that market, but it is one 
of the ways that we were trying to make headway in China.
    Mr. McMahon. Can you do more and can we do more?
    Ms. Wong. I think that there probably is room for 
continuing to look at intellectual property laws as we apply 
them in China. I know there are ongoing conversations now in 
terms of the trade agreements that we are dealing with, and we 
would be happy to give you more thoughts on that following the 
hearing.
    Mr. McMahon. Thank you. Mr. Holleyman, would you want to?
    Mr. Holleyman. Thank you, Mr. McMahon. I will add to that. 
Certainly in a country like China we see $6.7 billion in losses 
due to piracy, a significant portion of that loss is to U.S. 
software companies but also to Chinese software companies and 
to the channel. What I think in all of this though that we need 
to consider is that the impact of this goes far beyond any 
individual working in a software- or a copyright-based company 
or even their partners. In an area like software, what we find 
is that most of the software piracy in China is not necessarily 
from a counterfeit copies and not necessarily from downloaded 
copies of software.
    For software, which is the largest copyright industry in 
the world, is when an otherwise legitimate business may have 
one or two legal copies but they have duplicated it for 50 or 
100 or 1,000 or 2,000 workers. And when that happens, they are 
getting the productivity benefits for their company, they are 
selling their products at a cheaper price than people in your 
districts. And so we have to look at this as something that is 
first and foremost hurting U.S. companies because we are the 
leaders in producing copyright works. But it is displacing 
legitimate sales by U.S. companies in a whole host of 
industries, and we need to look at that.
    Mr. McMahon. So it affects our very competitiveness, the 
competitiveness of the American companies.
    Mr. Holleyman. Absolutely, far beyond any company that sees 
themselves as an intellectual property-based company.
    Mr. McMahon. Okay, thank you. Thank you very much, Mr. 
Chairman, I yield back the remainder of my time.
    Chairman Berman. The gentleman has yielded back the 
remainder of his time. The gentleman from Illinois, Mr. 
Manzullo, ranking member on the Asia, the Pacific and the 
Global Environment Subcommittee, is recognized for 5 minutes.
    Mr. Manzullo. Thank you, Mr. Chairman. I was tied up in 
other meetings. I caught portions of the testimony. My question 
here is to Ms. Wong. I remember my staff, Nien Su, who was 
fluent in Chinese, and typed in Tiananmen Square on Google.cn, 
and he was led to an official Chinese site treating it I think 
as a travel opportunity, tourist opportunity. And then he typed 
on Google.com Tiananmen Square and got a very robust history of 
everything that happened there. My question to you is, I know 
you are in negotiations on censorship, but allowing a little 
bit of censorship is allowing all of censorship. And my 
question to you is, what if the Chinese say, ``That is it, we 
are not going to change our policies''; what is Google going to 
do?
    Ms. Wong. Thank you, Congressman, that is a very good 
question. So let me be really clear. Google is firm in its 
decision that it will stop censoring for China our search 
results, and we are working as quickly as possible toward that 
end. The fact of the matter is that we have hundreds of 
employees on the ground, some of whom are very dear colleagues 
of mine, and we do not underestimate the seriousness or the 
sensitivity of the decision that we have made. So we will stop 
censoring on our .cn property, the results, but we want to do 
it in an appropriate and a responsible way. There is----
    Mr. Manzullo. What if China says, ``You continue, we'll 
continue to censor or you are out''?
    Ms. Wong. We are not going to change our decision on 
stopping to censor, not censoring results anymore. So if the 
option is that we will need to both shutter our .cn property 
and leave the country, we are prepared to do that.
    Mr. Manzullo. Thank you.
    Chairman Berman. The gentleman yields back the balance of 
his time. And the gentleman from Missouri, chairman of the 
International Organizations, Human Rights<greek-l>, deg. and 
Oversight Subcommittee, Mr. Carnahan, is recognized for 5 
minutes.
    Mr. Carnahan. Thank you, Mr. Chairman, and thank you for 
holding this hearing on how we can transform our cyberspace 
policy to advance democracy, security, and trade. First I would 
like to turn to the Universal Declaration of Human Rights 
adopted in 1948 under the Truman administration. Article 19 
says, ``Everyone has a right to freedom of opinion and 
expression. This right includes freedom to hold opinions 
without interference and to seek, receive, and impart 
information and ideas through any media regardless of 
frontiers.''
    I think that is a great principle, and certainly the 
Internet was not around when that concept was really adopted, 
but certainly it applies here today. And I first want to ask 
about market share in China. I understand Google's market share 
has grown from about 15 percent in '06 to about 31 percent 
today, meanwhile Baidu has increased its market share from 
about 47 percent over the same time period up to 64 percent 
today. If Google leaves, and Baidu would be handed an effective 
monopoly, can you make an economic argument why this is not in 
China's national interest? And let me direct that to Ms. Wong.
    Ms. Wong. Well, I think it clearly is in China's economic 
interest. As I understand it, after we made our announcement 
that we would no longer be censoring search results Baidu's 
stock shot right up, and they are a Nasdaq listed company that 
does quite well obviously based on their market share. Having 
said that, consistent with our principles as a company, we felt 
that we could no longer continue to operate under the 
regulations in China.
    Mr. Carnahan. And I applaud your company's principled 
decision. And let me ask next, to what extent would this 
decision, if you do leave, stifle competition and innovation? 
How would such a decision limit the ability of other U.S. 
businesses to operate and advertise in China? And let me ask 
Mr. Holleyman about that.
    Mr. Holleyman. Mr. Carnahan, thank you for the question. I 
think it shows just how important it is that the U.S. 
Government take this on as an issue and ensure that U.S. 
companies can compete in various markets fairly and consistent 
with U.S. values. One of the challenges from the data I have 
seen is that Baidu is the third largest site for searches 
globally, behind Google and behind Yahoo and above Microsoft. 
And so one of the challenges will become as we will be doubling 
the number of Internet users, does a platform like Baidu become 
a prominent platform not just in China but, as they have 
indicated, on a global basis?
    And so I would submit that it is more important and it is 
important for the U.S. Government to make sure that companies 
like Google and Yahoo and Microsoft and others can do business 
in a market like China so that as that next generation of 
Internet is built out it will continue to be based on U.S. 
companies rather than ceding that next generation to companies 
like Baidu and others who may not have the same commitments 
that U.S. companies do.
    Mr. Carnahan. Great. Any others on the panel want to 
comment on that? Ms. MacKinnon?
    Ms. Mackinnon. Well certainly, you know, China has short 
term interests and long term interests as well, and there are 
many people in China who are not necessarily members of the 
government who argue that in the long run China is really 
hurting itself by censoring, by stifling information, and that 
China's long term competitiveness and innovation will be best 
served by being open. So that there are certainly those who are 
arguing that as well within China, and whatever we can do to 
help amplify that point of view and show that actually there 
are multiple points of view in China about what best serves 
their interests, I think would be helpful.
    Mr. Carnahan. Thank you very much. Mr. Chairman, I yield 
back the balance of my time.
    Chairman Berman. The time of the gentleman is expired. And 
the gentleman from Virginia, Mr. Connolly, is recognized for 5 
minutes.
    Mr. Connolly. I thank the chair. And thank you to all of 
the panelists for being here today. I had a bill on the floor, 
so forgive me for being a little late. It passed unanimously, I 
am glad to say.
    Chairman Berman. We want to complement you for your 
exquisite timing.
    Mr. Connolly. Thank you, Mr. Chairman. You know, Iran and 
China are just two prominent examples of countries that have 
been moving to control or censor, frankly speech, free speech 
over the Internet. Anyone on the panel, but what role do you 
see the private sector taking with regard to freedom of 
expression overseas? And what role should the private sector 
take with respect to that set of issues?
    Ms. Wong. Well I will start but maybe Rebecca will want to 
jump in too. I think that the private sector has made a really 
great step by farming the Global Network Initiative, which is a 
group of not just companies but also human rights 
organizations, academics, and socially responsible investors. 
And I think that having that body both as an area for shared 
learnings as well as having a unified voice on censorship 
issues around the world is really important. One of the things 
that we observed in the last few years is that when we went 
into a country we would be told by government regulators there, 
hey the guys down the street are doing this, you need to do it 
too.
    Having a coalition of companies that are in agreement with 
each other about our principles, and also being able to push 
back together against a government, is extraordinarily 
important. Having said that, the importance of having strong 
leadership in our Government to back us up when we make those 
decisions to open up channels for communication so that we can 
have reasonable conversations about those things is 
extraordinarily important.
    Mr. Connolly. Yeah, I think that is a really good point.
    Ms. Mackinnon. And just to back that up, that is absolutely 
true. It took a generation for the private sector to recognize 
that it had responsibilities in terms of labor practices. It 
took another generation for the private sector to recognize its 
environmental responsibilities, and now it is time for the 
entire ICT sector, information communications and technology 
sector, to recognize its responsibilities as regard free 
expression and human rights.
    And at the moment there are a few leading companies who 
have really taken the first step, and it is a learning process 
now through the Global Network Initiative and through the 
efforts of this committee and others in Congress, to really 
help the private sector step up to its responsibilities and 
figure out how to do that and still be competitive. Because I 
don't think it is always a binary choice, engage or get out.
    I think the lessons of Google, Microsoft, and Yahoo over 
the past few years since 2006 and the first hearings has been 
that it is often about how you engage, that you can make 
specific choices. As Mr. Smith pointed out, in Vietnam, Yahoo, 
having learned its lessons in China when it didn't think 
through how it was going to implement certain services, they 
thought through in Vietnam, how do we provide blogging services 
without exposing user data to the police in Vietnam? And so it 
is about helping companies be more thoughtful about their 
responsibilities while still doing business.
    Mr. Connolly. Good point. And I know the two gentlemen want 
to respond as well, and maybe in your response I would also 
like to know how you think the Global Network Initiative might 
play a role in this as well. Dr. Wortzel?
    Mr. Wortzel. Well, I have followed the Global Network 
Initiative on the commission, on the China Commission. I think 
that they are moving along well. I encourage Congress to 
continue to monitor their progress on what they hope to 
achieve. But I want to use bribery as kind of an analogy. You 
know, I don't have this great faith that the private sector is 
always going to behave well. We have got laws that stop U.S. 
companies from bribing foreign officials. So I think that, you 
know, you really do need to look at forms of legislation that 
may, if things like the Global Network Initiative don't catch 
on and work, may restrict what they can do and force them to 
adhere to our values. And I will just end it at that.
    Mr. Connolly. You have got the final word, Mr. Holleyman.
    Mr. Holleyman. Thank you, Mr. Connolly. I certainly agree 
with the sentiments of the other panelists, and we applaud the 
effort of the Secretariate and the members of the Global 
Network Initiative to look at potential ways of expanding that 
beyond the original ISP community with whom it was intended to 
more companies. And certainly I can't commit any particular 
company to participating in that, but I know that we have many 
members who are engaged in part of the work plan and discussion 
about potential participation as it is broadened.
    Mr. Connolly. I thank you all. My time is up. I look 
forward to this as a continuing dialogue. Thank you, Mr. 
Chairman.
    Chairman Berman. Thank you. And the gentleman's time is 
expired. And, if you don't mind having a slightly later than 
usual lunch, I would like to open up for a few more questions. 
No one has screamed, so I recognize myself for 5 minutes.
    Dr. Wortzel, a specific and a more general question. The 
specific question: You talk about our greatest vulnerability 
coming from China and that we have no arms control agreement 
with China. What about a cyber-control agreement, a bilateral 
protocol regulating both countries' behavior in cyberspace? 
There has been some discussion of this. I would be curious 
about your comments.
    The more general question: It is hard to articulate, but 
somewhere--there have been times when people in the American 
Government have been quite sanctimonious about attacking what 
other governments are doing and seeking to ban them, which if 
literally applied to our own conduct might affect us. Is there 
a line here that we need to, things that we do because we think 
they are--there are probably limitations on what we can talk 
about here--but things that we do because we think they are 
essential to our national security interest? And of course we 
are right and the others aren't, but it is harder to sell that 
internationally.
    Mr. Wortzel. Well, I wouldn't want to touch on the 
operations of the cyber-commands inside the U.S. military here, 
but I think you have hit on a very important point. We have a 
long history, the United States has a long history of arms 
control discussions and agreements with the Soviet Union that 
has led both to tacit acceptance of certain rules of behavior 
and formal treaties. Our attempts to do the same with the 
People's Republic of China have pretty well failed. And I have 
been involved with those directly since 1986.
    They won't talk to us about incidents at sea seriously, we 
had a treaty with the Russians. They won't talk and sit down 
formally in arms control and nuclear strategy negotiations as a 
confidence building measure. So even though the Russians today 
are beginning to talk to the United States about cyber, the 
Chinese have not reached the point of doing that. But your 
question is an extremely important one because I think what we 
have to do is focus on strategies to bring them in, track 2 
discussions in academia.
    Ensuring that there are international conferences that 
focus on things like the laws of war and how cyber warfare 
affects international warfare that they can attend. I think 
that our war colleges should be encouraging legal papers on 
these subjects, there are very few out there. And you are going 
to find Chinese responding to these. So gradually you begin to 
build up a body of almost common law on what constitutes an act 
of war, what activities are permissible. And remember that the 
laws of war were essentially written sometime between the end 
of World War I and mostly the end of World War II. So there is 
nothing in there about space warfare and the cyber age. We do 
need to address that.
    Chairman Berman. Thank you very much. Mr. Holleyman?
    Mr. Holleyman. Let me add one quick point to that, sort of 
going beyond it. When the President announced the results of 
the Cyberspace Policy Review, it was a significant undertaking 
for the first U.S. President to talk about cyberspace policy 
ever, reflective of the times. But I will say, while we greeted 
this with great support, probably the least well-developed 
prong of that plan relates to international, and to the 
international framework, the international cooperation, what 
the U.S. is trying to seek from our allies.
    There is a great intent, there is work being done, but 
looking at the auspices of this committee, I think one of the 
great contributions you can make is to ensure that there is the 
support, there is the attention, and there is the participation 
to make sure that that international prong of Cyberspace Policy 
Review is at least as robust as the domestic, because we don't 
have domestic security without having it internationally.
    Chairman Berman. Okay. I have a couple more questions. Mr. 
Smith, should I just give myself another 2 minutes and we will 
do the same for you and Mr. Connolly<greek-l> and then deg.? 
Okay. This issue of engaging with these countries that I would 
designate as Internet repressive, or however you would describe 
it, or removing ourselves completely--there have been articles 
about the ability to subvert the firewalls that these 
governments impose. Is there a particular value here to be in 
the country promoting, sort of knowing that there are ways to 
overcome those government firewalls that is lessened if you 
simply extricate yourself from that country? In the end, is 
there an argument to be made that you can get more information 
and encourage more communications by staying and hoping that 
those firewalls can be pierced than by just pulling out 
completely, or can you do it all from internationally just as 
easily and therefore you don't need to stay? Ms. MacKinnon?
    Ms. Mackinnon. I think there certainly is an argument, and 
that is why Google went into China initially after much soul 
searching, and why many people in China including dissidents 
and activists who I know are worried that Google might pull 
out, because they are afraid that then the firewall is going to 
come down on all Google services and that will make it harder 
for people to have independent conversations and gain outside 
knowledge.
    So there is very much a strong argument, and again why it 
is important to think about not just the binary engage or 
disengage but how you go about engaging, because there is great 
benefit to being there on the ground and to helping people 
access information. And also because blocking isn't the only 
part of censorship or the only barrier to free expression. You 
have removals, you have surveillance and attacks and all kinds 
of things, which makes it all the harder if you are on the 
outside.
    Ms. Wong. If I could just amplify?
    Chairman Berman. Well, yes.
    Ms. Wong. So our experience prior to going into China and 
offering a localized domain in 2006 is that we were being 
regularly blocked in China, wholesale. Probably 10 percent of 
the time, and much of the time even then we were much slower 
because of the latency of being outside of the country. That 
was the initial reason for going into China. We found that when 
we were there we were not blocked as frequently, we found that 
we were able to do really innovative things, like we were the 
first company to start displaying when we had removed search 
results because of government requirements that we let users 
know, and that actually has now become an industry standard in 
China and we think that is good for the transparency to the 
country.
    I don't want to underplay what a difficult decision it has 
been that we may not be able to continue to provide search 
results in China from the .cn property. We think we did a lot 
of good there. There was a study by the journal Nature recently 
where they surveyed scientists in China, and 80 percent of them 
use Google for their academic research because we are more 
comprehensive than the local players. But having said that and 
in doing the evaluation, we actually just felt that we couldn't 
continue to do what seems to be a trajectory of increasing 
political censorship.
    Chairman Berman. All right. Can I try and squeeze in one 
more, guys? Okay. Mr. Holleyman talked about these discussions 
about expanding GNI, and I am curious to what extent, and I 
guess, Ms. MacKinnon, you are directly involved, you are I 
guess one of the academic participants in that process. To what 
extent do you see the prospect for that kind of expansion, to 
go beyond just the ISPs and bring others who have software and 
hardware products into this initiative?
    Ms. Mackinnon. I think the prospects are strong if the 
other technology companies make efforts.
    Chairman Berman. Well, do you see a way in which Congress 
could incentivize those companies as they go back and forth on 
this issue to tip in favor of joining?
    Ms. Mackinnon. Certainly. I mean different members of the 
GNI might have different public views on this, but I do think 
that we wouldn't be where we are today if there hadn't been the 
threat of legislation in the first place, and so Congress 
certainly has a role to play there. And one of the objections 
or the excuses for not joining GNI by some companies is that, 
well it doesn't fit our business model.
    And our response is, look this is meant to be a flexible 
process, this is not meant to squeeze everybody into completely 
inappropriate frameworks. The point of this is to help 
companies, no matter what their business model is, no matter 
what their specific technology, do the right thing. And so our 
implementation guidelines and our governance charter and our 
assessment mechanisms can be adapted to anybody who is willing 
to engage substantively in joining, but they have to make the 
first step in engaging substantively and seriously on how they 
can join.
    Chairman Berman. You can have elasticity as to business 
models if they will come inside the tent, basically.
    Ms. Mackinnon. That is right.
    Chairman Berman. All right, I am going to yield back, but I 
do want to indicate that, from much of the testimony that I had 
a chance to read before the hearing and discussions, I have in 
mind some legislation. I want to work closely with Mr. Smith 
who has his own legislation to see if we can come up with 
something that invests our Government in playing the role they 
should be playing and that I think the Secretary, by her 
speech, indicated a willingness to play in getting it on a 
government-to-government basis, incentivizing people to join, 
putting some reasonable kinds of obligations on the companies 
in terms of this very important issue. And so with that I will 
yield to the ranking member.
    Mr. Smith. Thank you very much, Mr. Chairman. And, Ms. 
MacKinnon, I think your point about the threat of legislation 
causing or inspiring some additional action, the week we had 
the hearing, the day we had the hearing in February 2006, all 
of a sudden the State Department announced, and we welcomed it 
obviously, a task force to being looking at this issue and 
looking at it hopefully robustly. So I think your point was 
very well taken. All of your points were excellent. Thank you 
for your testimony and your work.
    Let me just, a couple of questions. Right before the 
Beijing Olympics, Congressman Frank Wolf and I traveled to 
Beijing on a human rights mission, we met with underground 
pastors of churches, most of whom were arrested. We had a 
prisoners list of 732 prisoners and very precise information 
about their alleged crimes, which was simply trying to live out 
the Universal Declaration on Human Rights. Labor leaders, you 
know, there was a broad list. And we got nowhere with that.
    But we went to a cyber cafe while we were there, and we 
spent huge amount of time, both Mr. Wolf and I, accessing every 
site we could think of, Radio Free Asia, Voice of America, 
anything pertaining to the Dalai Lama. I even couldn't get my 
Web site. All of it was blocked. I don't know what they thought 
they were blocking when they were blocking my Web site but it 
was blocked.
    And even when I went to a very esoteric search time, and 
that was Manfred Nowak--the special rapporteur for torture who 
is a outstanding U.N. diplomat and, you know, he stands head 
and shoulders, I believe, above many in terms of the 
preciseness of his reporting--he had done a scathing report on 
torture in China. And when I typed in Manfred Nowak, what I got 
was his report on Guantanamo, not his report on Chinese 
systematic and pervasive use of torture.
    So my fear then, and as it always has been, is that a whole 
generation of Chinese are precluded accurate information, or at 
least information that they can make accurate or informed 
decisions about. And so the censoring issue, that and 
personally identifiable information are, you know, the two 
hallmarks of the Global Online Freedom Act, so I do hope we 
move forward on that and I would welcome any further thoughts 
you have on that.
    One concern that I have that I don't think we focus enough 
on, when I chaired the Africa Subcommittee, I held two hearings 
on China's increasingly poisoning role on Africa. The fact that 
when it comes to good governance, you know, they are net 
exporters to the U.S., our balance of trade was $228 billion 
over the last 12 months. They export other things too, and that 
is a repression model that is being scooped up by the likes of 
people in Sudan and other places, and other currently existing 
dictatorships are borrowing, Lukashenko in Belarus and others, 
the model that has been hand-given to them by the Chinese cyber 
police.
    So my question is, you know, I don't think we have the 
luxury of time. You know, dictatorships are repressing by the 
day, if you are in a torture chamber or in a gulag somewhat or 
the Lao Gai in China, you don't know if you are going to live 
to the next day. So time is of the essence, we don't have the 
luxury of delay. And so I would raise the issue, you know, we 
try to share best practices, the United States and other 
democracies. They are sharing worst practices, and they are 
doing it as aggressively as we could possibly imagine in Latin 
America, in Africa, and elsewhere. So I do think we need a 
hurry-up offense to make sure that we do much more and we do it 
effectively.
    So if you might want to comment on that, because I do 
think, you know, if you destroy the dissidents, the Lech 
Walessas of Poland and all the other great leaders, the Harry 
Wus, who thankfully at least he is alive and well here but 
exiled, where is democracy and human rights going to come from? 
You will cower the generation to remain silent and stay under 
the radar, and that goes for labor leaders and everything else. 
So these worst practices, I hope our businesses realize that 
they are not neutral in this. And it is unwitting I think.
    When we had the four members of the four biggest companies 
here, even though we were all upset about what was happening, 
my sense was, I think it is unwitting, I don't think they want 
this to happen, I think it is perhaps naivety and maybe some 
complicity, but who knows? The firewall busting technology, if 
you could speak to that. You know, we have appropriated $30 
million for that. Our friends in the Falun Gong and others feel 
that they have a useful product, maybe you want to speak to 
whether or not--I mean I see it as a sidebar issue. GOFA and 
those initiatives, government to government, should be the 
mainstream, but there are technologies that can evade and 
hopefully.
    And finally on the Cisco, which we didn't get time to 
answer before, their, you know, Police Net and the kind of 
technology that Cisco has transferred not just to the police 
but also to the military is extraordinarily effective in making 
sure that everyone walks in lockstep with a dictatorship or 
else. So if you could speak to those issues I would appreciate 
it. And for the record, Mr. Chairman, I would ask that a letter 
from Google, and I thank them again for endorsing GOFA, from 
eleven NGOs, including Amnesty International, Reporters Without 
Borders, a list of eleven, and Freedom House, be made a part of 
the record.
    Chairman Berman. We will, subject to reviewing it to see if 
there are any terms that we can't include. No--it will be 
included for the record.
    [The information referred to follows:]<greek-l>Smith 
FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Mackinnon. Well, just, I think you raised a lot of 
really good points. And I was actually a journalist working for 
CNN in the '90s when the Internet arrived in China, and we were 
all very naive, I think, in thinking that, well there is no way 
that an authoritarian government can survive the Internet. 
Well, I think China is absolutely the poster child for how 
authoritarianism does survive the Internet, and that this is a 
model that many regimes are copying. And Chinese networking 
companies like Hyawei and ZTE are doing very good business in 
African and Middle Eastern countries as well.
    And so that is one thing, and I remember in the 2006 
hearing some of the companies basically were saying things 
like, well as long as we provide the Internet in China, 
ultimately in the long run that will do everybody more good, so 
in the short run there are some consequences but, you know, 
that is just short run, in the long run we are going to be 
bringing freedom. And I think what we have learned over the 
last few years is that it is not that simple, and that the so 
called collateral damage immediately does matter and needs to 
be taken seriously, and that companies can be providing 
Internet access yet at the same time enabling 
authoritarianism's survival in the Internet age and helping to 
raise this whole generation of people who don't know what they 
don't know. And so that is very serious.
    And as you say about Cisco, I have had conversations with 
them and they say, well we are not doing anything illegal, you 
know, we are selling to police forces like we sell to law 
enforcement all over the world. And this is a problem not just 
with Cisco but there are a number of American companies selling 
biometric technologies that are also being used for law 
enforcement. And to also just speak very quickly to Mr. 
Holleyman's point about the next generation Internet and the 
need for American companies to be at the forefront of that, 
well China and many other countries also want to be at the 
forefront of building the next generation of the Internet, 
which is going to be much more mobile, ``Internet of things'' 
and so on.
    And we need to make sure that our companies are not 
enabling and contributing to a next generation Internet that 
does not allow anonymity, that does not allow for privacy and 
makes dissent even more difficult than it is becoming today. So 
this is all the more reason why we need to make sure that 
companies across a broad spectrum of technology applications 
and business models are all mindful of what they are doing. And 
then the filtering technology.
    Yes, I know a lot of people in China who are using a range 
of different tools to get around censorship, and this is 
certainly something that deserves continued support. There is a 
challenge that I find that actually many Chinese people, many 
Chinese Internet users, even though they are aware of these 
tools, aren't using them. So there is a whole other range of 
issues about education and community building around these 
tools. And also the fact that again Internet blocking isn't the 
whole story with censorship. On the Chinese language Internet a 
lot of content is just being removed, and so that circumvention 
tools won't help you with that if the content has been taken 
down or if a site has been hacked, and the self-censorship that 
takes place because of surveillance and so on. So we need a 
whole range of different tactics along with circumvention to 
help people conduct free and open conversations without fear.
    Mr. Holleyman. Mr. Smith, I will just comment to Ms. 
MacKinnon's comment about the next generation Internet. I mean 
one of the--looking at the title of this hearing, how does 
cyber policy address issues of democracy, security, trade, as 
we build to a next generation Internet we will definitely be 
better as a country if the backbone of that is based on U.S. 
companies. And we will be more secure, there will be more 
democratization in the world, and we will have greater economic 
security.
    What we need to do is make sure that we are using the most 
vigorous abilities of the U.S. Government to make these 
government-to-government issues to really drive this 
discussion, and then also to work against things that would 
make it difficult or impossible for U.S. companies in IT to 
remain in markets. Because as we move to a marketplace for the 
Internet that will be dramatically larger than it is today, it 
would not be in the U.S. foreign policy interest for the 
platform of that Internet to be based on companies who had 
their genesis and origin in countries that had restrictive 
policies.
    Mr. Smith. If I could just one 5-second question? Harry Wu 
said there were 35,000 cyber police, and that was an estimation 
in 2006. Do any of you have the number of how many police are 
deployed to that operation?
    Ms. Mackinnon. I don't have a very reliable number. It has 
become very difficult to quantify because every police 
department, every kind of military division and so on has 
people who are involved with Internet, but also a lot of 
policing of the Internet is actually basically outsourced to 
private companies, so it is not police doing it but Baidu and 
many other Chinese companies have entire departments of people 
whose job it is to monitor and censor content. And so a lot of 
it is not actually being done by police, it is being done by 
the private sector.
    Mr. Wortzel. I agree with Ms. MacKinnon. I don't think you 
are going to get a reliable figure today. Cyber militias have 
been created, reserve public security people are brought in 
from universities and businesses, and it is outsourced.
    Chairman Berman. The gentleman from Virginia will have the 
last question.
    Mr. Connolly. Thank you, Mr. Chairman. With respect to 
piracy, what is the obligation of search engines like Google 
and what is the obligation of governments in protecting content 
providers against piracy and especially links to piratical 
sights?
    Ms. Wong. So Google's policy in terms of search starts with 
the notion of we want to have the most comprehensive index 
possible. When you type in a search we want to deliver 
something that is relevant for you. However, when we become 
aware of content that is illegal, we do remove those from the 
search engine and have a process for doing that. I think that 
that is part of being responsible in terms of showing users as 
much information as possible but also respecting the rights of 
intellectual property owners.
    Mr. Connolly. But what I am hearing you say, Ms. Wong, is 
Google acknowledges it has some responsibility when you know a 
site is illegally piratical and you are putting a content 
provider at risk linking to that site, you are going to do 
something about maybe removing that site, or that link.
    Ms. Wong. That is right. It is actually governed by a law 
passed by this body many years ago, the Digital Millennium 
Copyright Act. We have a process for receiving claims by the 
intellectual property holder and to process those claims to 
remove it upon notice. Under that process then for search 
engines they are taken out of index.
    Mr. Connolly. Thank you. Anyone else? Mr. Holleyman?
    Mr. Holleyman. We think there needs to be a workable 
mechanism. We do believe certainly that the U.S. foundation--
the Digital Millennium Copyright Act--was a solid foundation. 
We also think that there need to be obligations that companies 
assume on their own where there are repeat instances of piracy 
that has been identified, whether they are not simply 
responding to a complaint from a copyright holder but they are 
also taking affirmative steps to take down repeat infringers 
and to prohibit means that would monetize activity associated 
with piracy.
    Mr. Connolly. Thank you very much. And thank you, Mr. 
Chairman. I yield back.
    Chairman Berman. Well now that you have opened up that 
issue, I just want to, I just feel compelled to follow up a 
little bit here. Actually, Ms. MacKinnon, your testimony 
originally, your first testimony you submitted before the snow 
week, had some recommendations regarding intermediary 
liability. You spoke to that in your testimony today but you 
didn't include that in your conclusions. But if, let us just 
talk hypothetically.
    Ms. Wong, you have mentioned notice and takedown provisions 
of the Digital Millennium Copyright Act--but if you could have 
a pretty darn flawless kind of filter to separate what Mr. 
Connolly has talked about, or add to that child pornography or 
other things, from other kinds of content, what is wrong with 
intermediary liability in that situation? In places 
particularly where there is an activity that makes you 
something more than just a sort of automatic conduit? Having 
changed the nature of this hearing.
    Ms. Wong. I think we have seen the dangers of intermediary 
liability, most recently in a case in Italy that was brought 
against three of our executives for the alleged violation of 
invasion of privacy under Italian law.
    Chairman Berman. We talked about that, right.
    Ms. Wong. In which three of our executives were criminally 
convicted for a video that was uploaded to YouTube. Although, 
when we got notice from law enforcement that that video 
existed, it was a cyber bullying video that violated our 
policies, we took it down within hours. However, our three 
executives have been convicted in an Italian court.
    What that means for a service, of any platform service but 
for YouTube, where users upload 20 hours of video every minute, 
the concept that you would prescreen or else be subject to 
liability means that that platform cannot exist with the 
robustness that has proven to provide video footage of the 
protests in Iran, of in Burma. There has to be a way to 
continue to permit the robustness of that platform. And a 
prescreening requirement or intermediary liability for user 
content I think would dampen that.
    Chairman Berman. That was not a case where you were sort of 
promoting and advertising linking to this video, right? I mean 
this was not, you were not trying to commercially exploit the 
placement of that particular video.
    Ms. Wong. Right.
    Chairman Berman. What if part of the intermediary liability 
constrained it only to areas where there was an intermediary's 
action to essentially promote links?
    Ms. Wong. Which means the intermediary or the platform has 
somehow appropriated or reviewed and decided to commercially 
use that information.
    Chairman Berman. Yes.
    Ms. Wong. I think that that is different. We have actually 
tried to----
    Chairman Berman. Okay, now we have narrowed this down. All 
right.
    Ms. Wong. I think that we have tried to find a thread which 
actually partners with the content holders. So for example on 
YouTube we have a content ID process where, we are not in a 
position to know who that content owner is or what their rights 
in it might be, but the content holders can identify it for 
themselves and make a decision to have it monetized, to have 
claimed or to have it taken down.
    Chairman Berman. That is right. All right, look, thank you 
all very much for coming. It has been a very valuable hearing. 
I would like to get, if you would be willing to take the time, 
some more specific suggestions on these Iran issues of trying 
to get out of our export prohibitions the kinds of things that 
could help there for our legislation. We are in a situation 
where we could make great use of that information. And with 
that, the hearing is adjourned.
    [Whereupon, at 12:34 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
